<html>
<title> - THE CHESAPEAKE BAY IN YOUR COMMUNITY: A RESTORATION PLAN</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
       THE CHESAPEAKE BAY IN YOUR COMMUNITY: A RESTORATION PLAN

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, May 18, 2004

                               __________

                           Serial No. 108-95

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
93-706                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Walter B. Jones, Jr., North          Ron Kind, Wisconsin
    Carolina                         Madeleine Z. Bordallo, Guam
Randy Neugebauer, Texas              Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Tuesday, May 18, 2004............................     1

Statement of Members:
    Cardin, Hon. Benjamin L., a Representative in Congress from 
      the State of Maryland......................................    22
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Bohemia Manor High School, represented by Sarah Lucs-Haji and 
      Charlotte Sanford-Crane, Chesapeake City, Maryland.........    30
        Prepared statement of....................................    33
    Broadneck High School, represented by Christian Melendez and 
      Jamie Morganstern, Annapolis, Maryland.....................     5
        Prepared statement of....................................     8
    Pocomoke High School, represented by Leslie Levin and Kenneth 
      Nugent, Pocomoke, Maryland.................................    34
        Prepared statement of....................................    38
    South River High School, represented by Olivia Logan and 
      Bryan James, Edgewater, Maryland...........................    12
        Prepared statement of....................................    15


     OVERSIGHT HEARING ON THE CHESAPEAKE BAY IN YOUR COMMUNITY: A 
                            RESTORATION PLAN

                              ----------                              


                         Tuesday, May 18, 2004

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.
    Present: Representatives Gilchrest, Pallone and Kind.
    Also Present: Representative Cardin.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Good morning, everyone.
    What we are going to attempt to do this morning--this is 
the Subcommittee on Fisheries Conservation, Wildlife and Oceans 
of the full Committee on Resources, and this is our hearing 
room.
    The gentleman to my left is Congressman Frank Pallone. He 
is from New Jersey. Congressman Pallone, for the most part, is 
a co-chair on this subcommittee. We call him the Ranking Member 
of this Fisheries Subcommittee.
    We have hearings generally twice a month throughout the 
year on various issues dealing with the oceans, the fisheries, 
with invasive species and, certainly periodically, with the 
Chesapeake Bay.
    This morning, we are going to, for the most part, conduct 
our hearing in the same way that it would normally be 
conducted, with witnesses that come from as far away as Iceland 
or Australia, New Zealand, California, Alaska, Montana, and 
sometimes even from New Jersey. But we want to thank all of you 
for making the effort to come here this morning to give your 
testimony.
    There will be lights on the table that will be turned on 
just the way they are turned on at a normal hearing. Generally, 
witnesses are given about 5 minutes to give their testimony. 
The testimony is always submitted for the record. The full text 
of the testimony and much of the information is gathered by the 
Members of Congress from the witnesses as a result of the 
questioning that takes place after the witnesses give their 
testimony.
    The reporter here this morning is from Centreville, and 
Miss Julie is most often on the House Floor taking down what 
Members say there. And it goes into the Congressional Record. 
We appreciate her coming here this morning and fighting the 
traffic on Route 50.
    Bo Dame, to my right, is a fellow working with the 
Subcommittee, getting his Ph.D. in coastal resource management, 
which is very appropriate for this.
    So I also want to thank the students for participating, and 
the teachers for helping them through this process, for all of 
the family members that have been very helpful.
    Reading through your testimony last night, you touched upon 
just about everything that is wrong and right with human 
activity about the Chesapeake Bay. You have touched upon sewage 
waste, air deposition, septic tanks, power plants, 
transportation, storm water runoff, agriculture runoff, 
deforestation, turbidity from power boats, overfishing, 
disease--all of the human activity that has fragmented and 
degraded nature's bounty in the Chesapeake Bay.
    But you also went through a variety of ways that we could 
resolve and solve those problems, which I will just briefly 
summarize from your reports. And they are: Human infrastructure 
needs to be compatible with nature's infrastructure. And you 
have done some extra work. Just two quick quotes here. George 
Percy, 1607--and this was in the Bay Journal, so if you get a 
chance to get a copy of the Bay Journal for the month of May, 
this quote is in there: ``we are set down 80 miles within a 
river so stored with sturgeon and other sweets, fish, as no 
man's fortune has ever passed the like. And as we think, if 
more may be wished in a river, it will be found.'' so the next 
time you are out on the Bay in a boat or a canoe or a kayak, I 
think that vision can come to mind. And if we work hard enough, 
it can become a reality.
    I guess if we talk about the Chesapeake Bay, we have to 
mention Captain John Smith: ``heaven and earth never agreed 
better to frame a place for man's habitation.''
    So you are moving into the arena where you are the next 
generation responsible for that restoration. And we wanted to 
all work to help that transition, so that when you are sitting 
up here--and I encourage all of you to run for public office 
some time during your journey of life, to make a contribution--
when you are sitting up here behind the dais as a staffer or a 
Member or as a reporter, reporting all of this down, you will 
remember this day.
    So thank you all very much for coming.
    [The prepared statement of Mr. Gilchrest follows:]

       Statement by The Honorable Wayne T. Gilchrest, Chairman, 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

    Good morning, I would like to welcome everyone to what I believe 
will be an exciting, educational and important hearing on the future of 
the Chesapeake Bay.
    Earlier this year, I wrote to every high school in my Congressional 
District, and I challenged students at those fine institutions to 
identify the problems facing the Chesapeake Bay, the human activities 
that should be changed to help reduce those negative impacts, and to 
suggest ways that we can lessen those impacts in the future. I am not 
sure there has ever been a Congressional Hearing like this before but I 
am anxious to hear the testimony of students from Bohemia Manor High 
School, Broadneck High School, Pocomoke High School and South River 
High School.
    These young men and women have dedicated themselves to this project 
and, as the future leaders of their communities, it is their 
restoration plans that can serve as a model for the future.
    In 1612, Captain John Smith looked upon the Chesapeake Bay and 
proclaimed that ``heaven and earth never agreed better to frame a place 
for man's habitation.'' For those of us, who have the privilege of 
living along the Chesapeake Bay or one of its tributaries, we are proud 
that this majestic body of water is the largest estuary in North 
America. The watershed includes all or portions of 6 states; it holds 
more than 18 trillion gallons of water; it supports more than 3,600 
species of plants and wildlife; and it produces of some of the finest 
seafood in the world.
    It is, therefore, not surprising that President Ronald Reagan once 
declared that: ``The Chesapeake Bay is a national treasure that is 
worth preserving for its own sake''. In recent years, this 15,000-year-
old treasure has suffered from the effects of growing human population, 
over-harvesting of its resources, and water-quality degradation. While 
millions have been spent and restoration plans, like the Chesapeake 
2000 Agreement, have been implemented, the job of restoring the Bay is 
far from completed.
    In the final analysis, for us to reach our goal of restoring the 
Bay, it is essential to have local citizen involvement and that 
includes the students, and their parents, teachers, families, and 
friends, that are with us today. The shores of the Chesapeake Bay 
cradled our first settlements in America and together, with the vision 
of tomorrow's community leaders, we can restore this magnificent 
ecosystem.
    Again, I want to welcome those who have traveled to our nation's 
capital to participate in this most important hearing. I am now pleased 
to recognize the gentleman from New Jersey, the Ranking Democratic 
Member of the Subcommittee, Congressman Frank Pallone.
                                 ______
                                 
    Mr. Gilchrest. I want to yield now to the gentleman from 
New Jersey, Mr. Pallone.

 STATEMENT OF THE HON. FRANK PALLONE, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    I had a written statement, but I would like to submit that 
for the record, if I could.
    I just wanted to say briefly that it is nice to see so many 
young people here today. As Congressman Gilchrest or the 
Chairman said, we get people from all over the world testifying 
before the committee, but we do not usually have as many 
younger people like yourself. It is kind of refreshing, 
frankly.
    The other thing I was going to say is, whether you know it 
or not, Congressman Gilchrest is a great guy. He really is a 
true environmentalist. And as you can hear from what he has 
already said today, he is almost philosophical about the 
environment because he thinks it is so important to protect it. 
And he looks at things from the whole ecological perspective.
    In addition to that, he is also very bipartisan. He 
neglected to mention that I am the Democrat. The Ranking Member 
is the most senior Democrat, if you will, on the committee. And 
he is always very gracious in having the Democrats not only 
have an opportunity to speak but also to bring up legislation 
that is important to them, which is the true test, I think, of 
being bipartisan.
    The only other thing I wanted to mention is that, as 
Congressman Gilchrest mentioned, I am from New Jersey, but I 
also am from a district in New Jersey that is along the coast. 
My district is either along the Atlantic Ocean or along the 
Raritan Bay or Raritan River or actually also the South River. 
I noticed some of you are from South River High School. I 
actually have a town called South River in my district that has 
a South River High School.
    So we are very much similar in some ways to Congressman 
Gilchrest's area, because water, both the ocean and the rivers 
and the bays, are so important. We probably have a lot more 
pollution than you do, because New Jersey has so much more of a 
history of industrialization, so the pollution, in some sense, 
is even more of a problem. But in terms of our dependence on 
the water and our relationship to the water and the ocean, it 
is just as important, I think, as it is to all of you.
    So I tell you that only because I want you to know that I 
can relate to your concerns.
    In addition, I actually used to spend some time in the 
Annapolis area. My father-in-law, my in-laws, lived in Riva, 
which I guess is right across from Annapolis, so I used to go 
down there quite a bit. I notice that some of you are from 
Annapolis and nearby areas, so I am familiar with the area, 
too. Thank you. Thank you for doing this today.
    [The prepared statement of Mr. Pallone follows:]

  Statement of The Honorable Frank Pallone, Jr., a Representative in 
                 Congress from the State of New Jersey

    Thank you and good morning. For early Native Americans the 
Chesapeake Bay was known as ``Great Shellfish Bay'' for the Bay=s 
natural abundance.
    Later on, the famed Baltimore journalist and author H. L. Mencken 
described the Bay as a ``great protein factory'' because of the vast 
numbers of crabs, oysters, clams, and fin fish harvested.
    History has shown that during the twentieth century, dramatic 
changes occurred on and around the Chesapeake Bay, often not for the 
benefit of the Bay itself.
    Shores once covered with farms and seafood packing houses now sport 
sprawling subdivisions, traffic, golf courses and marinas which drain 
and funnel excessive nutrients into the Bay=s ecosystem. Today, a 
visitor to the Bay is more likely to rub elbows alongside other 
vacationers and retirees than with a waterman plying for oysters.
    This morning we will hear from several students who will report on 
how far the Bay has fallen from a condition of almost unlimited 
abundance and productivity. We also will learn about the challenges to 
restoring a healthy Chesapeake Bay.
    Yet I view this hearing as a source of great optimism for the 
future. The Bay will only be restored if the next generation of 
residents rises to meet that challenge. I commend Chairman Gilchrest 
for giving these students that opportunity, and I look forward to 
hearing your recommendations. Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Congressman Pallone.
    Mr. Gilchrest. Our first panel is made up of students from 
Broadneck High School and South River High in Edgewater. And 
from Broadneck High School, our two witnesses will be Christian 
Melendez and Jamie Morganstern. And from South River High, we 
have Olivia Logan and Bryan James. If you four would please 
come up to the table.
    As you are coming up, as we go through, the first panel 
will give their testimony. And if you go over--if you see the 
light turn red and you are not done, just keep talking. It is 
OK. We do not cut you off at 5 minutes and 2 seconds.
    When we begin the questioning, we would like to open it up 
for your other fellow students in the audience to answer if 
they would like to. So we will start with Christian Melendez 
and Jamie Morganstern. You may begin.

    STATEMENT OF CHRISTIAN MELENDEZ AND JAMIE MORGANSTERN, 
           BROADNECK HIGH SCHOOL, ANNAPOLIS, MARYLAND

    Mr. Morganstern. Thank you, Mr. Chairman.
    Thank you, congressmen, for having us here today. My name 
is Jamie Morganstern.
    We are going to begin by looking at a couple of satellite 
images of where Broadneck High School is located. This first 
image is of Anne Arundel County. It is located in central 
Maryland on the Chesapeake Bay.
    This next image is of the Broadneck peninsula, which is 
surrounded by two rivers that are tributaries to the Chesapeake 
Bay, the Severn River and the Magothy River.
    The issues that we targeted during our research included 
air pollution, solid waste, toxins and oil, sediment, and 
nutrient loading.
    Air pollution in Anne Arundel County is a large concern for 
much of the population. Through wetland, dry deposition, acid 
rain, and erosion and runoff, we receive much of the air 
pollution in the Chesapeake Bay. The air shed that is in the 
Chesapeake Bay is 6.5 times larger than that of the watershed, 
and it covers approximately 418,000 square miles from regions 
as far away as Canada and Kentucky.
    The air deposition of the Chesapeake Bay contributes to 
approximately a third of the nitrogen load to the Chesapeake. 
And Anne Arundel County, where Broadneck High School is 
located, in the last State of the Air Report from the American 
Lung Association, dropped from 18th place to 17th place as the 
17th worst county air quality in the country. Last year, we had 
47 code orange days, which is a code for air quality that says 
that the air is bad for people with sensitive lungs, and 17 
code red days, which is just bad quality for everyone.
    Marylanders drive about 135 million miles a day, and 40 
percent of Maryland air problems is from vehicle exhaust. Some 
solutions that we have thought up were things like car pooling 
to prevent this vehicle exhaust. Also, some kind of, maybe, 
tax-incentives to provide to these commuters. In Maryland, we 
have the commuter tax credit, which gives a tax credit to those 
who car pool. And we could also set new emissions standards and 
reduce polluting vehicles.
    Solid waste is also a significant problem. This consists of 
municipal solid waste, which is generated by residents and 
businesses. The trash on the roadways can be washed into the 
Bay as well as dumping litter off of boats, which can destroy 
habitat and kill wildlife.
    One specific example of Anne Arundel County's problem with 
the contamination is the 1983 incident with the Patapsco 
Aquifer, which runs below the landfill, one of the landfills 
which was closed in Anne Arundel County. And the water that ran 
below it leaked into the Furnace Creek and into the Bay and had 
several chemicals that were harmful.
    Some solutions to the solid waste program could be better 
recycling programs, make them more successful. Although, we 
have had a lot of success with that. Also, waste facilities 
need to be properly managed. And a major problem that 
contributes to the solid waste is that 37 percent of all solid 
waste is paper. Thank you.
    Mr. Gilchrest. Thank you very much, James. Very nice job.
    Mr. Morganstern. This is just a statistic that we found of 
2001 total waste generation, and it just also shows that 36 
percent of all solid waste is paper. And it breaks it down for 
the others.
    Mr. Gilchrest. Why don't you read through those.
    Mr. Morganstern. OK. Paper, 35.7 percent; yard trimmings, 
12.2 percent; food scraps, 11.4 percent; plastics, 11.1 
percent; metals, 7.9 percent; rubber, leather, and textiles, 
7.1 percent; glass, 5.5 percent; wood, 5.7 percent; and other, 
3.4 percent.
    Mr. Gilchrest. Thank you.
    Mr. Melendez. Thank you for having me here. I am going to 
go over toxins and oil right now.
    As far as what humans do to contribute to the problem, we 
have leaking oil. A prime example is automobiles and boats that 
are not properly maintained by us. Obviously, the worst 
condition is the higher probability it is going to leak oil 
along with other toxins and coolants.
    There is illegal disposal. This problem actually has been 
improving over the past few years, but we have had countries, 
especially Russia and the United States, illegally dumping oil 
and other toxins and hazardous waste off the coasts into the 
oceans. Then we have accidents. There is obviously the big one, 
the Exxon Valdez that we all know about.
    Some solutions include recycling oil. That one is something 
actually that our county already promotes, but I think that we 
need to expand more upon it. Many people, I found, did not know 
that we have programs to recycle oil. I think about 42 gallons 
of oil, crude oil, is needed to refine 2 quarts of lubricating 
oil. But if we use 2 gallons, I believe, of recycled oil, that 
equals the same amount of lubricating oil that we can produce. 
So we would not need as much. And we would also be using what 
we already have produced.
    Community action: We should just promote more awareness 
throughout the community and have people work more toward 
educating others about the problem at hand.
    Next is sediment. Agriculture, development, and erosion all 
pretty much go together, hand-in-hand. Basically, through 
runoff, we have sediment moving into storm drains and other 
modes of transportation which ultimately lead into the Bay. 
Sediment basically reduces the clarity in the water and also 
smothers aquatic vegetation living at the bottom of the Bay. So 
this causes them to have a higher chance of dying, higher death 
rates.
    Regulations: Basically to improve buffer zones is what we 
were aiming at for the sediment problem.
    Here is a satellite image of the Chesapeake Bay watershed. 
It is not our tributary, but it is a good example of after a 
rain storm. We have the Potomac and Patuxant Rivers, and you 
can see much of the runoff that is coming off the coasts of 
these rivers, and ultimately, they will go into the Bay.
    Our final problem is nutrient loading. Most of this comes 
out of nitrogen. We have an excessive amount of nitrogen in the 
Chesapeake Bay. It comes from fertilizer which runs off into 
the Bay. There are domestic pets in which their, basically, 
feces is hazardous to the Bay and will eventually make their 
way into the Bay. There is waste water discharge from the 
sewage treatment plants.
    The biggest solution we thought would be more buffer zones. 
But a prime example would be, the Maryland legislature recently 
passed a flush tax, which is basically designed to bring in 
more revenue that would be used to upgrade the sewage treatment 
plants in the hope of reducing the amount of waste water that 
is discharged into the Bay.
    And then our final few slides basically have to do with 
student activism. Things that the students in the community 
have done include organized tree planting. In the past 5 years, 
I believe that the Broadneck community has planted over 1,000 
trees in the area. One of the big events was a 9-11 memorial. 
We dedicated around 100 or so trees to all of the countries of 
which people from those countries that died in the World Trade 
Center attacks. They each had their own tree to be 
commemorated.
    There are environmental projects. The big one is Bay Day, 
in which students through the high school basically participate 
in all of these events that have to do with the Chesapeake Bay 
in order to promote awareness, education, and to educate 
basically on the significance of the Chesapeake Bay, to not 
only the watershed but to the rest of the country and the world 
and what they can do to preserve it and improve the situation.
    These pictures basically give a look at the Broadneck 
peninsula, the students studying local streams. There have been 
some publications by the Broadneck students. As you can see, 
there was a Shoes, Ships, and Sealing Wax publication, which 
basically was an oral history of all of the local watermen and 
people associated with the Bay that basically gave their 
account of what the Bay meant to them, the significance they 
believe that the Bay played in their lives, and why we as a 
community should be concerned.
    And then you can see students studying aquatic vegetation, 
bay grasses, which promote more oxygen in the Bay and increase 
water clarity. We have more students taking more of a hands-on 
approach.
    Then, these are 2 articles. One is about Bay Day, and the 
other is about Broadneck students who visited Smith Island, 
which is an island located in the Chesapeake Bay. Basically, 
you can get a feel of what the community has been doing, mainly 
the students, of how to educate themselves better about the 
Chesapeake Bay. Thank you.
    [The prepared statement of Mr. Melendez and Mr. Morganstern 
follows:]

  Statement of Christian Melendez and Jamie Morganstern on behalf of 
               Broadneck High School, Annapolis, Maryland

                      contributors to the report:


                ,--                                   ,

                Teachers:            Students
                George Bell          Daniel Brittain
                Nancy Bourgeois      Julia Elkin
                Dennis Mekic         Ben Fleming
                Patricia Neidhardt   Jay Fleming
                Paul Sabota          Christopher Mentzer
                                     Candace Volke
                                     Leif Whitman
                                     Geoff Gillikin


                              INTRODUCTION

    Our high school and community are located on the Broadneck 
Peninsula in Anne Arundel County. We are situated on the western shore 
of the Chesapeake Bay near the Chesapeake Bay Bridge. The Broadneck 
peninsula watersheds into the Magothy, Severn and Little Magothy Rivers 
that empty into the Chesapeake Bay.
    We have identified these problems in our community that potentially 
have a deleterious effect on the Bay:
    <bullet>  air pollution
    <bullet>  solid waste
    <bullet>  toxins and oil
    <bullet>  sediment
    <bullet>  nutrient loading
    Human activities on the Broadneck Peninsula that are associated 
with these Bay problems include:
    <bullet>  development
    <bullet>  transportation
    <bullet>  habitat destruction
    We have investigated some solutions that include
    <bullet>  green technology
    <bullet>  habitat restoration
    <bullet>  conservation
    <bullet>  education and awareness

Nutrient Loading
    Each year roughly 300 million pounds of nitrogen overload the 
Chesapeake waterways.
    1.  A certain amount of nitrogen is healthy for the Chesapeake Bay: 
however, the nitrogen concentration in the Chesapeake Bay is six times 
the amount that is healthy for the Bay.
         a.  Most of the nitrogen comes from the nine major 
        tributaries. 97% of the nitrogen entered the Bay through the 
        James, Potomac and the Susquehanna rivers, the three largest 
        tributaries. The Susquehanna contributes the most out of all of 
        the Bay's tributaries, mostly because the river drains some of 
        the most productive farmlands in the nation.
         b.  The effects are poor water quality caused by excessive 
        algae growth, low dissolved oxygen (dead zones during summers 
        result in fish kills), reduced water clarity (underwater 
        grasses are deprived of light and die).
         c.  The causes and sources of the problem include, fertilizer 
        in runoff from agriculture and lawns, wastewater discharge from 
        sewage treatment plants, pet feces, boats that illegally dump 
        sewage, and urban and suburban runoff from nonpoint sources.
         d.  Human activities that contribute to nutrient loading 
        include development, lawn care, urban and suburban runoff, 
        mismanagement of land, air pollution, fossil fuel emissions, 
        poor soil conservation techniques in agriculture, wastewater 
        discharge containing nitrogen from septic systems, and with 
        increase in population sewage plants releasing untreated 
        sewage.
         e.  Solutions include providing forest buffer zones along 
        waterways, tree and native grasses planning that would prevent 
        erosion, habitat restoration, and reduction of air pollution by 
        carpooling and purchase of more hybrid cars, solar power, 
        energy conservation, and improved wastewater treatment. The 
        proposed Flush Tax could be used to upgrade sewage plants.

Air pollution
    Air pollution is more than just smog floating in the air. Through 
wet and dry deposition, the pollutants in the air fall to the ground 
and can eventually be carried into the Bay through erosion and runoff, 
becoming three problems, rather than just one.
Problems and sources:
    1.  The massive size of the Chesapeake Air Shed.
         a.  Compared to the watershed, the Air shed is six and a half 
        times larger, having an approximate area of 418,000 sq. miles, 
        being influenced by locations as far away as Canada, Kentucky, 
        and South Carolina.
         b.  Air deposition contributes to about 1/3 of the total 
        nitrogen load of the Chesapeake Bay (around 97.5 million 
        pounds). It's estimated that 75 percent of the load will be 
        distributed to the land, while the rest will flow directly into 
        the water.
         c.  Nationwide, 474 counties are failing to meet standards for 
        ground level ozone or for causing a downwind county to fail.
         d.  In the most recent ``State of the Air'' report released by 
        the American Lung Association, Anne Arundel County fell from 
        its 18th position to that of the 17th worse county in the 
        nation.
    2.  Baltimore-Washington metropolitan area
         a.  Baltimore and Washington areas (Anne Arundel, Baltimore, 
        Baltimore City, Carroll, Harford, Howard, Calvert, Charles, 
        Frederick, Montgomery, and Prince Georges counties) have been 
        deemed nonattainment by the EPA for failure to meet the federal 
        standard for ground level ozone pollution.
         b.  Last year in Anne Arundel County, there were 47 Code 
        Orange days (unhealthy air for sensitive groups) and 17 Code 
        Red days (unhealthy air for everyone). That's 64 days with 
        unhealthy air during the summer.
         c.  Marylanders drive more than 135 million miles each day. 
        These miles are responsible for up to 40 percent of Maryland's 
        air problems. The nitrogen from the exhaust will eventually 
        finds its way into the Bay, cause up to 40 million in crop 
        damage, and cause many health problems to the citizens living 
        in the area.
         d.  Anne Arundel County is no exception with many of its 
        drivers commuting to the Washington and Baltimore area for 
        work. Our county lacks a strong public transportation program.
    3.  Population of the water shed
         a.  There are nearly 16 million people living in the water 
        shed today, by 2010, at least another 3 million people will be 
        added. The Baltimore Washington Metropolitan Region is one of 
        the fastest growing areas in the country. This means more 
        vehicles and more demands for power. These two sources, vehicle 
        exhaust and smoke stacks, contribute the most to nitrogen 
        levels in the air.
         b.  Other sources include agriculture, which emits particulate 
        matter, chemical compounds, and gasses such as ammonia.
         c.  These sources of pollution, stationary (factories), mobile 
        (car), and agricultural cause acid rain, smog, and 
        eutrophication.
         d.  Eutrophication creates dead zones, areas of water with out 
        oxygen. Forty percent of the water in the Bay suffered from low 
        dissolved oxygen levels. Accumulated nitrates can eventually 
        creep into sources of drinking water.
         e.  In 2003, one of the largest dead zones ever recorded in 
        the Bay's history was observed.

Solutions:
    1.  Offer more incentives towards alternative transportation to the 
work place. Through tax savings or allocated funds, employers/employees 
should be motivated to find different and more efficient methods to get 
to work. In Maryland there exists the Commuter Tax Credit, and since 
its introduction in 2000, more than 200 employers and 10,000 employees 
have joined.
    2.  Change patterns of land use to remove the component of driving 
to reduce emissions.
    3.  Push towards more environmental friendly methods of production 
of goods. Recently, there was the Clean Air Excellence Awards, which 
recognized 13 new, innovative environmental techniques.
    4.  Tax incentives may be a means of compensation for those who use 
environmentally friendly products, whether it is solar panels on the 
roof of one's house or purchase of a hydrogen car.
    5.  Follow in the footstep of California and set a standard of 0 
emissions to be reached by a certain year. An optimistic goal can 
stimulate greatness in results.

Toxins & Oil in the Chesapeake Bay
    1.  Oil released in the Chesapeake Bay Watershed can cause 
widespread contamination. The gradual breakdown of oil releases 
carcinogenic toxins into the Bay, harming marine life. One quart of oil 
can pollute up to two million gallons of drinking water. Four quarts of 
oil (the amount needed for a typical car) can create an oil slick as 
large as eight acres.
    2.  Some of the organisms at risk are:
         a.  Fish in the Bay will take oil into their gills.
         b.  Oysters, clams, submerged aquatic vegetation will suffer 
        from reduced oxygen because of the layer of oil on the surface.
    3.  Human Activities that result in the release of oil include 
negligent dumping of motor oil into landfills, sewers/storm drains, and 
directly onto the ground. This can result in contamination of 
groundwater and much of the oil reaches the Chesapeake Bay.
    4.  Solutions include:
         a.  Recycling Oil because 42 gallons of crude oil is needed to 
        refine two quarts of lubricating oil; only one gallon of 
        recycled oil is needed to produce the same two quarts of 
        lubricating oil.
         b.  Community action providing education for citizens through 
        scheduled community meetings or signs on disposal of used oil.
         c.  Local, countywide, and/or statewide programs to collect 
        recycled oil.
    5.  Support groups for implementation of the above solutions could 
include private organizations such as the Chesapeake Bay Foundation or 
county and state government.

Solid Waste
    1.  Solid waste includes municipal solid waste (generated by 
residents and businesses) and roadside litter. Trash is washed from 
roadways into waters that flow into the Chesapeake. Dumping litter 
overboard is illegal and can destroy habitat and kill wildlife.
         a.  Landfills, if not designed and operated properly, can 
        result in ground water contamination from volatile organic 
        compounds (VOCs), cyanide, and heavy metals including lead.
         b.  One such incident was the contamination of the Patapsco 
        Aquifer (the most productive water source in the county). Such 
        chemicals from the 80-acre Smuck dump contaminated it in 1983. 
        Contamination was also found in sediments of Furnace Creek that 
        borders the site and connects to the Chesapeake Bay.
         c.  To fight contamination, in 1997, the State amended the 
        Consent Agreement requiring the County to cap the landfill with 
        clean soil, install a landfill gas management system and a 
        leachate collection system, collect sediment samples, and 
        perform air monitoring.
    2.  Solutions include:
         a.  Increase of recycling programs. Paper contributes to 37 
        percent of all solid waste in landfills.
         b.  Toxic waste should be disposed of in appropriately 
        designed facilities only (i.e., oil).

Sediments
    1.  Sources
         a.  Sediments are the lose particles of soil, clay, and other 
        substances that are suspended in the water.
         b.  The main sources of sediments are agriculture, high way 
        construction, building sites, forest clearing, and shoreline 
        erosion. The sediments from these sites may contain nutrients, 
        oils, pesticides, and other pollutants.
    2.  Problems
         a.  Suspended sediment clouds the water that reduces access of 
        underwater vegetation to sunlight inhibiting growth. Loss of 
        growth reduces dissolved oxygen levels and depletes habitat for 
        other organisms such as crabs and fish.
         b.  Sediments smother bottom dwelling plants and animals 
        (i.e., SAV, oysters, and clams).
         c.  Loose sediments fill in ports and waterways, and block the 
        passages of streams.
    3.  Solutions
         a.  Planting and protection of shoreline vegetation. Stricter 
        regulations can help in creating stronger buffer zones composed 
        of cord grass, phragmites, and stream bank fencing to keep 
        domestic animals from eroding shorelines.
         b.  Planting of underwater grasses to help trap sediment and 
        reduce wave action that causes shoreline erosion. Broadneck 
        High School participates in ``Grasses for Classes,'' a project 
        in which students grow grasses in their classrooms and plant 
        them in their bay.
         c.  Storm water management plans include rain barrels and rain 
        gardens.
         d.  Reducing the amount of impervious surfaces (i.e., turf 
        roofs).

                              BIBLIOGRAPHY

    www.chesapeakebay.net/info/sediment.cfm
    www.uswaternews.com/archives/arcpolicy/3newgoa5.html
    www.cheapeakebay.net/info/baygras.cfm
    www.fws.gov/r5cbfo/CBSAV.htm
    http://www.epa.gov/reg3hwmd/super/MD/anne-arundel/pad.htm
    www.chesapeakebay.net/info/air--pollution.cfm
    www.mde.state.md.us/air/air--information/sixcommon.asp
    www.mde.state.md.us/Programs/AirPrograms/Mobile--sources/veip/
index.asp
    www.cbf.org/site/PageServer?pagename=ccwc--air
    www.cbf.org/action
Bay Related Activities at Broadneck High School:
    <bullet>  Broadneck High School was selected as a Bay School by the 
Chesapeake Bay Foundation and was a part of the Bay School Project from 
2000--2003. The purpose of the program was to utilize the Chesapeake 
Bay as an integrating context to deliver curriculum. This project was 
based on studies indicating that when the environment is used as an 
integrating context, scores on standardized tests improve, disciplinary 
referrals decrease, and a heightened sense of community develops in the 
school. We continue to work with the Chesapeake Bay Foundation through 
their Chesapeake Classrooms program.
    <bullet>  Bay Days occur each fall during which the entire freshman 
class participates in interdisciplinary Chesapeake Bay related 
activities including a service-learning project.
    <bullet>  Students in a number of science and social studies 
classrooms are growing and studying underwater Bay grasses. In June the 
students will plant the grasses in local waterways. This is the 3rd 
year we have participated in this program.
    <bullet>  Over the last 5 years Broadneck students have planted 
over 1,000 trees on our campus. The year following 9-11 we planted 83 
commemorative trees in memory of all countries that lost citizens that 
day. This year we planted 30 trees at Sandy Point State Park. The 
source of funding for these plantings came from grants from the 
Chesapeake Bay Trust and the State Department of Natural Resources.
    <bullet>  This spring the Outdoor Science Club led by an Eagle 
Scout applicant will install rain barrels on the campus field house and 
will plant native plants in a memorial garden to be watered by the 
rainwater collected in the barrels.
    <bullet>  Several school clubs are dedicated to environmental 
improvement. These clubs are Recycling Club, the Outdoor Science Club, 
and the Broadneck Beautification Club.
    <bullet>  Three years ago Broadneck speech students collected oral 
histories from watermen and others who are intimately connected with 
the Bay and published a book entitled, Shoes, Ships, and Sealing Wax. 
This book heightened awareness in our community of the importance of 
the Bay and its plight.
    <bullet>  English students continue to write children's books that 
are Bay related and to share them with local elementary students.
    <bullet>  Advanced Placement Environmental Science (a college level 
course) enrollment has grown to 150 students for the 2004--05 school 
year and 50 students have enrolled in environmental science (a high 
school level course).
    <bullet>  Students plan to share this report with the county 
council, the Chesapeake Bay Foundation, the Magothy River Association, 
and the Severn River Association.
                                 ______
                                 
    Mr. Gilchrest. Very well done.
    We are joined by Congressman Ron Kind from Wisconsin.
    Ron, thanks for coming. Did you want to make a statement?
    Mr. Kind. I would be happy to. I thank my good friend and 
colleague from Maryland for hosting this hearing.
    And I wanted to especially welcome the high school students 
in attendance today and hearing your testimony. I am very 
excited to see, Mr. Gilchrest, this panel of high school 
students and others in attendance showing some interest in what 
I think and what I believe you think is one of the great 
challenges we face in this Nation. And that is habitat 
protection, quality water supplies, what we can do, working 
together at all levels, from the Federal Government, State, 
local, and private entities and individual citizens like 
yourselves to improve the environment in which we live and in 
which we grow up in.
    Just to make the connection, as far as the Chesapeake Bay 
area and in the western part of Wisconsin, the district that I 
represent--I am right along the Mississippi River, and it is 
one of North America's largest migratory routes. Every fall, we 
have a large population of tundra swans that are flying down 
from Canada, flights in western Wisconsin in some of our back 
bays and wetlands areas as they continue their trip to the 
Chesapeake Bay area. So even though you may think the 
Chesapeake is a relatively distinct geographic area, it has a 
huge impact on all of us in North America and my constituents, 
too, in western Wisconsin.
    So I am glad to see this interest at this level. We have 
some high school students and middle school students in western 
Wisconsin who also have these days-on-the-river type of 
excursions and field trips where they work with some of the 
scientists at the USGS Upper Mississippi Science Lab. And they 
do all kinds of student projects too. So it is really good to 
see the youth of our country getting involved in such an 
important issue that we are going to be dealing with for many 
decades to come in this century.
    So I welcome you all, and I thank my good friend for 
holding this hearing today. Thank you very much.
    Mr. Gilchrest. Thank you, Mr. Kind.
    Chris and Jamie, you did a magnificent job.
    We will go to Olivia and Bryan for the next two. Is Bryan 
or Olivia going to go first?

          STATEMENT OF OLIVIA LOGAN AND BRYAN JAMES, 
          SOUTH RIVER HIGH SCHOOL, EDGEWATER, MARYLAND

    Mr. James. I will.
    First, I would like to say, thank you very much, Mr. 
Chairman and Congressmen, for having us here today. We are from 
South River High School, which is located in Edgewater, 
Maryland.
    Mainly what we focused on were the tributaries around us. 
We focused on the Rhode River, the Severn River and the South 
River, which is where we are from. A lot of the problems facing 
us, a lot of the things are centralized in our area and have a 
huge impact. And it has been in the papers and everything. Lots 
of stuff going on, so that is mainly what we focused on in our 
presentation.
    Ms. Logan. We focused on three different problems. We 
focused on boating, erosion, and nutrients.
    First, about boating, we discovered that maintaining and 
operating a boat, its engine, and the marine sanitation devices 
on board are factors that can have severe negative impacts on 
water quality, shoreline stability, and bay life. Marine 
sanitation devices, which are the heads/toilets on board, they 
contain human waste which contains nitrogen and phosphates that 
contribute to water pollution, such as algal blooms and oxygen 
depletion.
    Other problems associated with boats is littering and the 
dumping of any material in any inland watery, such as rivers, 
lakes, bays, and sounds, which is actually illegal, but that 
does not necessarily stop people from doing it.
    Boat wakes also contribute to shoreline erosion, especially 
in smaller coves and creeks. And wakes tend to stir up bottom 
sediments which reduces sunlight essential to underwater 
grasses.
    Regarding appearance and maintenance of one's boat, a 
single quart of spilled oil can pollute up to 2 acres, which is 
the equivalent to nearly 3 football fields of water surface.
    Regarding nutrient pollution, due to pollution from excess 
nitrogen and phosphorus, the Chesapeake Bay remains on the 
Clean Water Act list of impaired waters. Currently, waste water 
treatment plants contribute 61 million pounds of nitrogen per 
year. Nitrogen pollution causes algae blooms that consume 
oxygen which lowers dissolved oxygen levels so that fish and 
shellfish die. Overabundance of nitrogen contributes to the 
Bay's dead zone and creates algae blooms that block sunlight to 
underwater grasses and prevents their growth.
    The majority of nitrogen pollution comes from human 
impacts, such as sewage treatment plants, large-scale animal 
operations, agriculture, air pollution, and smokestacks.
    Erosion is a problem on the Chesapeake Bay because of, like 
I said before, the boat wakes. During periods of rain or 
melting snow, soil and other particles are carried off the land 
and into the waterways. Sediments make the water cloudy so less 
light is available for underwater bay grasses to grow and then 
support the water life that are surrounding it. Also, sediments 
can carry high concentrations of certain toxic materials that 
contaminate waterways.
    We discovered that a way to deal with erosion is to do 
different landscaping. And we discovered that you can cover the 
soil by choosing grasses, perennials, shrubs and trees that fit 
your landscape. You can use mulch and straw to cover the soil, 
or you can direct downspouts on to grass or mulched planting 
beds using splash boxes to reduce impact.
    You can also improve the soil by adding organic matter or 
using compost yard waste and using planting beds as a place to 
recycle fallen leaves. You also can stabilize slopes and 
gardening on slopes by using native grasses, ground covers or 
shrubs, rather than using grass clippings, as mulch. A way to 
implement such a plan would be to use local business support or 
have local lawn services offer a discount on the landscaping.
    Also, landscapes that help the Chesapeake Bay are things 
like having paved areas at a minimum or rethinking your lawn, 
such as considering making it smaller or planting wild flowers. 
Another idea is to leave buffer strips which are 25 foot wider 
strips of unmowed grass or woodland along the water. And a way 
to implement this plan would be to have a tax conventional 
insecticide, herbicide plan or have a public works group 
construct drains leading to the ground in hard surfaces or 
remove hard surfaces entirely.
    Mr. James. Landscapes that help the Chesapeake Bay: Keeping 
paved areas to a minimum. That way, when the construction is 
going on to pave the areas, it really degrades the sediment and 
the structure of the sediment so much that it makes it much 
easier for runoff to happen. Like she said, buffer strips and 
dealing with a lot of pests sensibly. We have all kinds of 
pests affecting the lawns.
    Boating erosion solutions: Boating is a huge problem. It is 
causing most of the erosion along the Bay. The South River just 
recently in the past few years implemented a 35-mile-per-hour 
speed limit on the river. That way, it keeps it down. I know 
for a fact that Turkey Point Beach has lost over 20 feet in the 
past 10 years due to boating erosion from the wakes. It has 
been put on one of the critical beach lists, Turkey Point Beach 
and Turkey Point Island.
    Another thing, disallowing boats with horsepower over 7 
miles an hour in narrow waterways, or keep a uniform speed 
limit. Deep Creek Lake has the same model. And what that keeps 
it from is those really narrow waterways from just pretty much 
sinking right into the water. Since I have lived there, I have 
seen a few islands turn into just about shrubs now sitting out 
in the water.
    Uniform bulkhead along the shorelines. Most houses do have 
bulkheads to keep their property from fading away, but a lot of 
them do not. A uniform bulkhead policy would be the best thing 
to do, because the soil running off is a huge problem.
    Of course, the easiest part, funding, coming up with the 
money for it. Possible solutions would be charitable donations. 
You could run dinners sponsored by the local businesses, things 
like that. You can also do tax implementation. What we can do 
with that is put a State tax on fertilizer, and you can 
discourage overuse for commercial companies, government-
approved fertilizer, things like that. Local agriculture 
businesses can be charged with taxes that support their 
preservation causes, and also waterway fund tax writeoff. You 
can include a form to contribute to problems of erosion, and 
that way, you can write it off on your taxes.
    Private fees: We really need to raise the fees for dealing 
with the Bay, because a lot of the penalties are not strong 
enough right now. And I feel that DNR, they try their best, but 
they are really understaffed. And they cannot keep a really 
good handle on it. So a tax deduction for ecological 
improvements or donations from individuals is another good 
thing.
    So this is just basically an overview of what we were 
talking about, penny drives, holding dinners supported by local 
businesses. It is just an overview. Thank you very much.
    Ms. Logan. Thank you.
    [The prepared statement of Ms. Logan and Mr. James 
follows:]

            Statement submitted by South River High School, 
                          Edgewater, Maryland

 Boating, Erosion, and Nutrients: Problems and Solutions for the South 
 River, Rhode River, and Severn River Tributaries of the Chesapeake Bay

                              Written by:

                              Bryan James

                            Kimberly Kontson

                              Maria Lemmen

                              Olivia Logan

                            Katherine Norton

                             Phillip Ruane

I. Tributaries In Consideration
    A.  Rhode River
    B.  Severn River
    C.  South River
II. Boating
    A.  Background Information
          1.  The effects of a single boat may seem insignificant, but 
        when multiplied by the tens of thousands, the effects are 
        dramatic.
          2.  Maintaining/operating a boat, its engine, and marine 
        sanitation devices are factors that can have severe negative 
        impacts on water quality, shoreline stability, and Bay life.
    B.  Marine Sanitation Devices (MSD's)
          1.  Human waste contains nitrogen and phosphates that 
        contribute to water pollution, such algal blooms and oxygen 
        depletion.
          2.  Human waste contains bacteria that can transmit diseases 
        to swimmers and can close shellfish beds.
          3.  Preventable problems
                a.  sewage discharge.
                b.  failure to meet EPA standards (heads/toilets).
                c.  Lack of on-shore pump-out stations.
                d.  Failure to maintain/rinse the MSD.
    C.  Littering
          1.  Plastic and litter ruin the natural beauty of the Bay and 
        injure/kill aquatic life.
          2.  The dumping of any material in any in-land waterway 
        (rivers, lakes, bays, and sounds) is illegal.
          3.  Plastics are prohibited from being thrown overboard 
        worldwide.
          4.  Preventable problems include illegal dumping of wastes.
    D.  Boat Wakes
          1.  Wakes contribute to shoreline erosion, especially in 
        smaller coves and creeks.
          2.  Wakes stir up bottom sediments, which reduces sunlight 
        essential to underwater grasses.
          3.  Preventable problems include violators of speed limit.
    E.  Boat Appearance and Maintenance
          1.  Scrapings from sanding/scraping are hazardous waste.
          2.  Due to its toxicity, it is illegal to use an anti-fouling 
        coating on your boat to prevent growth on the bottom.
          3.  A single quart of spilled oil can pollute up to two 
        acres, the equivalent to nearly three football fields of water 
        surface.
          4.  The alcohol content of unleaded fuels has a tendency to 
        deteriorate fuel line hoses.
          5.  It is illegal to dump antifreeze into the Bay and its 
        tributaries.
          6.  Oil in bilge water can be pumped overboard by the bilge 
        pump.
          7.  Preventable problems:
                a.  Failure to report oil spills or toxic products 
            spills in general
                b.  Using toxic boat cleaners
III. Nutrient Pollution
    A.  Wastewater Treatment Plants
          1.  Maryland has 62 major wastewater treatment plants.
          2.  Due to pollution from excess nitrogen and phosphorus, the 
        Chesapeake Bay remains on the Clean Water Act list of impaired 
        waters.
          3.  The Chesapeake 2000 Agreement, signed by Maryland, 
        Virginia, the District of Columbia and the Environmental 
        Protection Agency, commits to taking actions necessary to 
        removing the Bay and its tidal tributaries from the list by 
        2010.
          4.  Currently, wastewater treatment plants contribute 61 
        million pounds of nitrogen per year.
          5.  Upgrading the major wastewater treatment plants to 
        achieve nitrogen reductions of 3 mg/liter would remove 42 
        million pounds of nitrogen in the Bay each year or 31 percent 
        of total nitrogen reductions needed to meet 2010 goals.
          6.  To meet 2010 goals, annual nitrogen discharges into the 
        Bay must be reduced by at least 150 million pounds from the 
        current 300 million pounds.
    B.  Nitrogen and Phosphorus
          1.  Nitrogen pollution causes algae blooms that consume 
        oxygen, which lowers dissolved oxygen levels so that fish and 
        shellfish die.
          2.  Overabundance of nitrogen contributes to the Bay's ``Dead 
        Zone'' and creates algae blooms that block sunlight to 
        underwater grasses and prevents their growth.
          3.  As land use patterns change and the watershed's 
        population grows, the amount of nitrogen entering the Bay's 
        waters increases tremendously.
          4.  The majority of nitrogen pollution comes from human 
        impacts such as sewage treatment plants, large-scale animal 
        operations, agriculture, air pollution, and smoke stacks.
          5.  Agricultural runoff contributes 40% of the nitrogen and 
        50% of the phosphorus entering the Bay.
          6.  Nutrients come from natural sources such as decaying 
        organic matter in forests and wetlands.
          7.  Other sources include septic systems, runoff from 
        roadways, development, residential and commercial lawn 
        fertilizers, and air deposition from factories.
          8.  Too many nutrients pose the threat of Pfiesteria 
        piscicida, a microscopic organism that has been linked to 
        people having difficulties learning and concentrating.
IV. Erosion
    A.  During periods of rain or melting snow, soil and other 
particles are carried off the land and into waterways.
    B.  Sediments can smother bottom-dwelling plants and animals, such 
as oysters and clams.
    C.  Suspended sediments make the water cloudy so less light is 
available for underwater Bay grasses.
    D.  Sediments can carry high concentrations of certain toxic 
materials that contaminate waterways.
    E.  Sediments also carry nutrients, particularly phosphorus, which 
increases nutrient pollution in the Bay.
    F.  Other natural processes that contribute to sediments in the Bay 
are wind, ice-flows and water currents.
    G.  Sediments are loose particles of clay, silt, sand and other 
substances that are suspended in the water and settle to the bottom of 
a water body.
V. Landscaping to Deal With Erosion:
    A.  Cover the soil
          1.  Choose grasses, perennials, shrubs, and trees that fit 
        your landscape.
          2.  Use mulch and straw to cover the soil.
          3.  Direct downspouts onto grass or mulched planting beds 
        (use splash blocks to reduce impact).
    B.  Improve the soil
          1.  Add organic matter.
          2.  Compost yard wastes and use planting beds as a place to 
        recycle fallen leaves.
          3.  Use raised beds with framed solid sides (will keep soil 
        in place).
          4.  Plant cover crops in the garden (a.k.a. green manures).
    C.  Stabilizing slopes and gardening on slopes
          1.  Use native grasses, groundcovers, or shrubs (do not use 
        grass clippings as mulch).
          2.  Plant along the contour.
          3.  Construct terraces.
    D.  Implementation
          1.  Local business support. Selected lawn suppliers will 
        offer discount prices on mulch, grasses, and shrubs.
          2.  Local lawn services will offer a discount on landscaping. 
        The citizen may landscape his own yard if he/she prefers.
VI. Landscapes That Help the Chesapeake Bay: The following landscaping 
        recommendations will be beneficial to the environment around 
        the Chesapeake Bay.
    A.  Keep paved areas to a minimum
          1.  Hard surfaces do not allow water to soak into the ground.
          2.  Instead use gravel, wood chips, stepping stones, or 
        bricks on sand.
    B.  Rethink the lawn
          1.  Consider making it smaller.
          2.  Plant wildflowers.
    C.  Conserve water
          1.  Use plants adapted to this region.
          2.  Use plants that are extremely drought tolerant.
          3.  Group plants that require regular watering to minimize 
        waste.
          4.  Use soaker hoses or drip-irrigation.
          5.  Water lawn only when grass shows signs of needing water.
    D.  Leave buffer strips
          1.  25-foot wider strip of unmowed grass or woodland along 
        the water.
          2.  Will slow runoff, filter water pollutants, and provide 
        food and shelter for wildlife.
    E.  Deal with pests sensibly
          1.  Integrated Pest Management (IPM).
          2.  Plant a variety of species to avoid widespread damage.
          3.  Use disease and insect-resistant plants.
          4.  Monitor your landscape.
    F.  Conserve energy
          1.  Leave trees standing around building.
          2.  This will reduce energy consumed by heating and air 
        conditioning units.
    G.  Implementation
          1.  Tax conventional insecticides/herbicides.
          2.  A Public works group should construct drains leading to 
        the ground in hard surfaces, or remove hard surface entirely.
          3.  See Section V for landscaping plan.
VII. Solutions to Prevent Erosion From Boating
    A.  Implementation--develop a uniform rip rap and bulkhead policy 
along protected shorelines.
          1.  This has proven to reduce erosion by more than 80% in 
        some areas.
          2.  The cost of this implementation is considerably small 
        when you consider how expensive it will be 20 years from now to 
        recover.
          3.  Bulkheads not only prevent erosion but also protect all 
        wildlife that exists around it and helps prevent flooding.
    B.  Reduce speed rates on the rivers in all areas as they have done 
on the South River
          1.  Since the speed limit has been reduced to 35 mph, Turkey 
        Point Beach has been taken off the Critical Beach list for the 
        Chesapeake Bay.
          2.  If all areas where residential housing has already made 
        to sediment subject to erosion had the speed limit reduced, 
        similar success could be expected.
    C.  Do not allow boats with a horsepower of over 7 mph in some 
narrow coves and stream since these places are much more susceptible to 
erosion.
          1.  This plan has been put into place in areas such as Deep 
        Creek Lake with great success.
          2.  This also prevents boaters from running their vessels 
        aground because of the legal ramifications that will be put 
        into place
          3.  Boat wakes contribute to shoreline erosion, especially in 
        smaller coves and creeks. Stir up bottom sediments, which 
        reduces sunlight essential to underwater grasses.
VIII. Nutrient runoff
    A.  The problems of nutrient runoff can be solved by
          1.  Sparing use of fertilizer or use of fertilizer 
        alternatives encouraged by federally supported regional 
        government taxes.
          2.  Set yearly goals for reducing nutrient runoff in 
        industry. Upgrade wastewater treatment facilities and tax 
        facilities that do not meet industry goals by the quantity over 
        the goal.
          3.  Teaching practices that prevent erosion and runoff, and 
        assistance from public works/municipalities/local businesses to 
        implement them.
    B.  Fertilizer Use and Alternatives--Educate persons about 
alternatives and about proper, effective fertilizer uses, and put a 
heavy tax on fertilizer.
          1.  Education for the proper use
                a.  Use fertilizer from September to November.
                    i.  This allows grass to recover from summer 
            stresses.
                    ii.  It also may reduce the amount of runoff.
                    iii.  Maximizes nitrogen uptake.
                b.  Keep fertilizer off of pavement.
                c.  Use a drop spreader in restricted spaces.
                d.  Fix your spreader to prevent over-application.
                e.  Avoid Natural drainage areas.
                f.  Do not use on dormant or icy lawns.
                g.  See attached sheet for proper amount. Try to keep 
            in minimum.
                h.  Water only when absolutely necessary.
                i.  Maximum amount of fertilizer for each lawn should 
            not exceed two pounds for any lawn.
          2.  The tax on fertilizer should encourage new alternatives.
                a.  Corn Gluten--not harmful--biodegrades to a natural 
            nitrogen fertilizer.
                b.  Compost pile--use organic soil parts such as peat 
            moss, bone/blood/horn/hoof meal, fish, manure. Biodegrades 
            into soil nutrients.
                c.  Milorganite--Frederick County uses this organic 
            fertilizer as a substitute.
    C.  Implementation of Proper Land
          1.  Farmers and civilians will be required to administer a 
        soil quality test and make evaluations of a their lawn.
          2.  They will then report their results to the state 
        government, and then determine what materials are needed to 
        make the resident more environmentally safe. These materials 
        will be offered to the resident at a reduced price. Some 
        changes:
                a.  Topsoil must be covered with shrubs, grasses, etc 
            to keep runoff to a minimum.
                b.  Mulching is an effective way to reduce topsoil 
            runoff.
                c.  Garden on level ground. If you must garden on a 
            hill, reduce runoff by creating terraces.
                d.  Public Works programs could assist in building upon 
            request.
                e.  Shrubs and other grasses also reduce erosion and 
            runoff (See sections V and VI).
          3.  Citizens who fail to send in results or reform their lawn 
        will be punished with a fine.
IX. Solutions to Prevent Pollution From Boating on the Chesapeake
    A.  Government public works will inspect marine gas stations to 
encourage improvement of conditions.
          1.  Too many marinas in and around our area do not practice 
        safe policies when pumping gas.
          2.  Over the past year the DNR has issued over 120 citations 
        to marinas for thing, such as gas spillage and improper 
        disposal of toxic chemicals.
          3.  These facts should also be made more accessible to the 
        public to create a pressure on the marinas.
    B.  Crack down harder on shipping freights that are on their way 
into the Inner Harbor
          1.  Often times these ships pump bilge and release their 
        waste tanks into the Bay, which in turn drifts into our rivers 
        and does considerable damage.
          2.  If we make pump stations for this waste more accessible 
        then maybe these ships would be encouraged to dispose of their 
        waste properly.
X. Funding
    A.  Charitable Donations--Post donation tabs at local businesses 
that will call on residents to donate
          1.  Hold charitable dinners with goods donated by local 
        businesses.
          2.  Hold penny drives during environmental education weeks in 
        schools.
    B.  Taxes
          1.  A state tax on fertilizer to provide funds and discourage 
        overuse.
          2.  Local at risk businesses can be charged with taxes that 
        support preservation causes
          3.  Companies requesting construction in at risk areas would 
        be charged a fee to protect those areas
          4.  Waterway Fund Tax check off
    C.  Private Fees
          1.  Individuals that participate in hazardous activities 
        toward the waterways could be charged addition fees.
          2.  Design and market license plates and other commodities.
          3.  Tax deduction for ecological improvements or donations 
        from individuals.
Works Cited
``Alternatives--Pesticides--Herbicides--Fertilizer'' Klickitat County 
        4/25/04
<http://www.klickitatcounty.org/SolidWaste/
        ContentROne.asp?fContentIdSelected=562190018&fCategoryIdSelected
        =-1671944469>
Chesapeake 2000 Agreement. Annapolis, MD. March 31, 2000
``General Information About Chesapeake Bay'' Chesapeake Bay Foundation. 
        4/24/04 <http://www.cbf.org/site/
        PageServer?pagename=resources--facts--general>
Gill, Stanton with Ray Bosmans and Wanda MacLachlan. ``Fertilizer 
        Recommendations for Landscape Trees & Shrubs.'' Maryland 
        Cooperative Extension. 4/24/04 <http://www.agnr.umd.edu/MCE/
        Publications/Publication.cfm?ID=544>
Helsel, ZR. ``Energy and alternatives for fertilizer and pesticide 
        use'' University of California. 4/24/04 <http://
        www.sarep.ucdavis.edu/NEWSLTR/v5n5/sa-12.htm>
Minner, David D. ``Nonchemical Alternatives for the Home Lawn'' Iowa 
        State University. September 1996
``Reducing Nitrogen and Phosphorus Pollution from Wastewater Treatment 
        Facilities'' Chesapeake Bay Foundation. 4/25/04 <www.cbf.org/
        site/PageServer?pagename=resources--facts--nutrient--red--ww>
Ricciuti, Peter J. and Wanda MacLachlan ``Saving Your Soil and the 
        Chesapeake Bay'' Maryland Cooperative Extension. 4/24/04 
        <http://www.agnr.umd.edu/MCE/Publications/
        Publication.cfm?ID=64>
``Sediment Problems'' Chesapeake Bay Program. 4/23/04 <http://
        www.chesapeakebay.net/stressor1.htm>
Support. Chesapeake Bay Fund. 24 April, 2004. <http://www.cbf.org/site/
        PageServer?pagename=support--index>
Turner, Thomas and Peter J. Ricciuti ``Lawns and the Chesapeake Bay'' 
        Maryland Cooperative Extension. 4/24/04 <http://
        www.agnr.umd.edu/MCE/Publications/Publication.cfm?ID=48>
``Water Pollution in the Chesapeake Bay'' Chesapeake Bay Foundation. 4/
        25/04 <www.cbf.org/site/PageServer?pagename=resources--facts--
        water--pollution>
Year in Review: Funds. Chesapeake Bay Trust. 23 April, 2004. <http://
        www.chesapeakebaytrust.org/yearinreview.html>
                                 ______
                                 
    Mr. Gilchrest. Bryan and Olivia, excellent, excellent job.
    I have a few questions that I can ask the witnesses, but if 
there is anyone from your school who wants to participate in 
that answer, you are welcome to do that.
    I want to tell all of you that I do not know how many of 
you are seniors, who will be graduating and moving on to 
college, but we are going to make an annual event out of this.
    To the schoolteachers, we will let you know sometime in 
September instead of February, and we would like to do it maybe 
sometime in April to give you a longer time to get prepared for 
it, although I do not know if you could do a better job than 
what we have seen here this morning.
    But we really want to tap into your enthusiasm and passion 
for this issue on an ongoing basis, not for the purpose of this 
one particular hearing. But we would like to help you get 
organized and pursue the dissemination of this kind of 
information to many other key people around, basically around 
the watershed.
    That is why I am glad that--Mr. Pallone had to go to the 
Floor, but he will be coming back, and I am glad that Mr. Kind 
was able to join us here this morning.
    Some questions first to, I guess to Christian and Jamie. Do 
you have any idea of the condition of the Patapsco Aquifer 
contamination that you mentioned, where that is right now?
    Mr. Morganstern. I do not have any specific details, no.
    Mr. Gilchrest. Maybe we can look into that for you and pass 
that along to you and see what the status of that is. But that 
was an excellent statement that you made in that area, so that 
gives us a little information that we really did not have 
before to make a concerted effort.
    Mr. Morganstern. I do know that the landfill that was on 
top of that has been shut down since then.
    Mr. Gilchrest. OK. Well, it would be good to find out if it 
is still leaching into the aquifer and certainly let the people 
of the community know.
    You mentioned the Grasses For Classes program in your 
school. Can you give us some more detail on that? Grasses for 
Classes, I like that.
    Mr. Meckic. My name is Dennis Meckic from Broadneck High 
School. I can give you some information about that.
    Mr. Gilchrest. And you are a teacher?
    Mr. Meckic. Yes. We have a project in the school where we 
have teachers growing the grasses in the classroom for a period 
of about 9 weeks. And we have a respiration site in our 
community on the Little Magothy where we are trying to restore 
bay grasses at that site. And that is an ongoing project from 
last year and this year and hopefully into the future.
    We also have students who are growing bay grasses at their 
homes that will also be planted at that site, and that will 
happen the first week of June.
    Mr. Gilchrest. That is fabulous. That is wonderful. You 
also mentioned the storm water management as being a problem, 
and that is clearly an issue all over the State. But you said 
something about rain barrel and rain garden. Could you tell us 
a little bit more about that, how that works?
    Mr. Morganstern. Basically what a rain barrel and a rain 
garden does is it collects water that runs off of a building, 
perhaps a house or, as we are planning to do at our school, 
running off the field house from the football field, and having 
a rain garden that distributes the water that we collect to a 
garden through barrels.
    Mr. Gilchrest. So you have that set up now?
    Mr. Morganstern. Not yet.
    Mr. Gilchrest. I see.
    Mr. Morganstern. We have the materials. We need to put it 
together, though.
    Mr. Gilchrest. At the field house?
    Mr. Morganstern. Correct.
    Mr. Gilchrest. That would be great. I think that would be a 
really fabulous example, not only for the school but for the 
community. Just those little pieces of recognition of the 
problems that can be resolved with simple individual solutions. 
And I think people want to help the Bay clean-up; they just do 
not know how. You are going to go a long way in showing them 
how.
    The key to some of the things that you have recommended 
have been education. I think the classes that we see here today 
have been engrossed in understanding the issues in their part 
of the Chesapeake Bay. So the kind of information that you have 
gathered here with your school and with the curriculum is 
extraordinary, something that I think would benefit all of the 
schools in the Chesapeake Bay watershed.
    Can you give me your opinion on the schools in the 
Chesapeake Bay watershed tapping into the Bay program to 
actually create a curriculum?
    I am not trying to tell you how to run your school. I 
actually voted against No Child Left Behind, the Federal bill, 
better on the local level, and I did not like MSPAP. I was not 
a teacher during that period of time, but I did teach in Kent 
County High School, and my classroom was my creative arena. I 
think that has been reduced to some extent now.
    But we learn how to read, write, and do arithmetic. And 
those things are standard in all schools. And they help you for 
decades and decades. That is the structure of how you go about 
your day-to-day life in this civilization: reading, writing--
well, maybe people do not write any more with computers, but 
reading, writing, and arithmetic.
    I think a part of that, and I want to get your comments on 
this, would be the biosphere, just to know about the place 
where you live called planet earth and what it takes on the 
planet in a natural way to keep the biosphere alive.
    So could you see some day in your school system having an 
ecological study similar to reading and writing from K through 
12?
    Mr. Melendez. You mean more of as a program, like maybe 
developing a new class that would be incorporated into the 
county curriculum that has to do with, like, the local 
watershed?
    Mr. Gilchrest. I think so. I am sort of asking you the 
question to see if I can fine-tune my proposal, but something 
like that.
    Mr. Melendez. Well, something like that we somewhat do 
have. We have a class called environmental science, which 
basically deals with that, but it is more of an entire planet 
earth kind of thing. I think if we could make it more limited, 
more narrow in the field that it covers, more as the Chesapeake 
Bay watershed, maybe if we could develop a class that could be 
a supplement.
    Mr. Gilchrest. Sure.
    Mr. Melendez. To environmental science, or it could just be 
separate on its own, but something that all of the students 
could take to further their understanding of the environment.
    Because environmental science deals with a number of topics 
which all have to do with the Chesapeake Bay watershed, but I 
think the watershed has its own problems as opposed to maybe 
other areas of the world. So if we could get a more in-depth 
look at the Bay, not through a program such as Bay Day, which 
is good, but that is more of a one-time, annual thing.
    I think, if we could have something throughout the entire 
school where kids constantly, every day, would be learning 
about and then there would be projects associated with that 
throughout the year.
    Mr. Gilchrest. That sounds right on the mark.
    Ms. Niedhardt. I am Pat Niedhardt from Broadneck High 
School. The Chesapeake Bay Foundation has had a marvelous 
program over the last few years called the Chesapeake Bay 
Project. Broadneck High School was one of 9 schools that was 
participating in that. And the idea behind this was to have the 
environment, the Bay, be an integrating context for delivering 
our curriculum. So not adding on to our curriculum--as you 
know, that is always a problem--but using this as a way to 
deliver our curriculum.
    So the book that you saw up there, one of our speech 
teachers had always had her students do oral histories. And 
often students had interviewed their grandparents, which is 
great. But she had them interview watermen. And they went out 
on to Smith Island, and they spoke to the local watermen, et 
cetera.
    So the whole idea behind this, and there have been national 
studies on this, when you use the environment as an integrating 
context and you give students the opportunity to have real 
experiences, like you are providing them with today, this makes 
a huge impact on their life. Not only does it do that, but 
their grades are better, there are less disciplinary referrals, 
and everyone learns more.
    Mr. Gilchrest. Well, thank you very much.
    I have some other questions for South River High School, 
but I will yield now to my colleagues. We are now joined--and I 
have to ask unanimous consent for Mr. Cardin to sit on the 
dais.
    Mr. Cardin is on a number of committees here in Washington, 
but he is not on this committee, but I want to thank him for 
coming and sitting with us this morning.
    Thanks for coming, Ben. I appreciate it. Ben represents, 
Congressman Cardin represents much of Anne Arundel County, 
including Annapolis, which actually covers both the watersheds 
of the two high schools that are here. So Ben will have some 
questions.
    Do you want to have a quick statement, Ben, before I yield 
to the other colleagues?

 STATEMENT OF THE HON. BENJAMIN L. CARDIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Cardin. Let me thank Chairman Gilchrest for inviting me 
to attend. I really wanted to thank the students for being here 
and participating in our hearing.
    Mr. Chairman, we have spent in Congress a great deal of 
energy on the Chesapeake Bay and the role the Federal 
Government plays in it. It has been now 25 years in which we 
have been paying attention to the Chesapeake Bay. It is one of 
the most interesting bodies of water in the world and one of 
the efforts that have been made that really paid off.
    The frustrating part is that we have done a lot of work 
with Government, with the private sector, with different 
States, and we have done miraculous things in improving the 
quality of the water of the Chesapeake Bay. That is the good 
news. The bad news is that we have a long way to go. There is 
still a lot more work to be done. It is really going to be up 
to the next generation, your generation, leadership in your 
generation, whether you will be able to continue the interest 
in preserving and protecting the Chesapeake Bay and other 
bodies of water around our Nation. Whether the tradeoffs will 
be development or the tradeoffs will be cost, whether you will 
make this a priority in your generation.
    I had the chance, I guess a week ago, to be with Germantown 
Elementary students in Annapolis as we did a wade-in at the Bay 
and discovered some of the wildlife and some of the pollution 
problems. And we really have a real responsibility to continue 
this effort, which is going to cost resources, money, as well 
as attention. It really is your generation who I hope will 
provide leadership in the future.
    So, Mr. Chairman, I am pleased to be here. I want to make 
it clear that we want the Federal Government to be a partner, 
but a partner with the private community, with our schools, 
with our local communities.
    There have been a lot of programs that you, Mr. Chairman, 
have been very instrumental in helping create and fund, to 
provide a very small amount of Federal funds that leverage 
local activities, including by our students, that have 
tremendous impacts on the future of the Bay. And it is these 
types of programs that I think will pay off the biggest 
dividends in the future.
    Mr. Gilchrest. Thank you, Mr. Cardin.
    I yield now to the gentleman from New Jersey, Mr. Pallone, 
for any questions he may have.
    Mr. Pallone. Well, I just want to apologize. I had to leave 
after making my opening statement to go down to the Floor and 
make a speech, but I know, generally, what you are talking 
about. And I have read some of the testimony.
    If you remember, earlier, I mentioned about my own district 
in New Jersey. If I could just make some analogies and then 
maybe ask one question.
    Where I live in New Jersey, we are along the Atlantic 
Ocean, but then we also go into the Raritan Bay and into the 
rivers, the Raritan River, the Shrewsbury and the Navisink 
Rivers, so there are some similarities. As I mentioned, we have 
a long history of industrial pollution, which is far greater, I 
think, than what you face in the Chesapeake.
    What we did is--I have been around for 16 years--and for 
the first 10 years or so that I was here, we tried to stop all 
of the point source pollution, because people used to dump off 
the coast of my district sewage sludge, toxic dredge materials, 
everything, acid waste, the whole thing, and that was a big 
source of the contamination. We gradually closed, through 
Federal action and State action, every one of those point 
sources.
    But now the big problem is of course non-point-source 
pollution, and this Subcommittee and of course our Chairman, 
Congressman Gilchrest, has spent a lot of time having various 
hearings that relate to non-point pollution.
    The problem we have, and I know that Congressman Cardin was 
alluding to this, in as much as we have made great progress in 
cleaning up the water from the point sources, because there is 
so much more development, even in a State like New Jersey that 
is so over developed already, there has been so much more 
development in the last 10 years or 15 years since I have been 
in office that we are still not keeping up with it. In other 
words, we have all this pollution that comes from runoff, from 
lawns and you name it, whether it is commercial, industrial, or 
residential, that continues to cause problems.
    So I really think that the future is dealing with the non-
point source pollution, and a lot of it has to do with smart 
growth and being able to make sure that development does not 
impact the coastal areas as much as possible. That is not an 
easy task, though, because as you know, there is a constant 
pressure to build more and to have more high density 
development.
    So I do not know if any of you wanted to comment on that, 
whether or not--I know the Chesapeake is facing this same 
problem and whether you see, maybe amongst younger people like 
yourself, an understanding of the fact that we just maybe 
cannot have as much growth, we have to slow the growth, if 
anybody wanted to comment on that.
    Mr. James. Yes, I agree with that. I do not think people 
really see the tradeoffs, the benefits of that that you are 
making. Right now, you cannot put certain kinds of fertilizer 
in your yard. You have to put a certain kind of bulkhead up. 
And they say, ``It is going to make my yard look bad, but in 
the future, I will have a yard in 10 years or 15 years if I put 
this up.'' I just do not think that people really see the 
benefits of doing things now. I think they are kind of set in 
their ways, and I think that is the main problem.
    Mr. Pallone. Thanks.
    Anybody else?
    I find that younger people like my own children tend to be 
a lot more conscious of these things, but it is still hard to 
relate it down on an individual level. I agree with you.
    Thanks, Mr. Chairman.
    Mr. Gilchrest. Another responder in the back.
    Mr. Whitman. My name is Leif Whitman.
    Mr. Gilchrest. You are from which high school?
    Mr. Whitman. Broadneck High School.
    I think it is maybe not even so much as stopping the 
growth, which is something that is pretty unrealistic, because 
that would of course be a much larger contribution from, like, 
the Governments and more control. But maybe just encouraging 
and enforcing smarter growth. All across, like, the known world 
and everything, it is just Americans seem to have a very strong 
sense of wanting larger yards and everything that is not 
necessary.
    I think what would be more important is discouraging that, 
but still allowing growth, as we have to in a free society, but 
just limiting it and making it smarter. There are many small 
things we could do to improve it, and they even save money, 
such as, of course, the driving factor and all of this other 
stuff. It is just ignored from being different or just not 
known about. So not so much stopping growth. I would just 
support smarter growth.
    Mr. Pallone. OK. Thanks. I agree.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Mr. Kind, any questions?
    Mr. Kind. Chairman Gilchrest, again, I just want to say how 
impressed I am with the presentation that we heard here from 
the high school students. It really is encouraging. I commend 
you and your leadership as well as Mr. Cardin and Mr. Pallone 
in the efforts that have been taken in regard to the enhanced 
protection and preservation of the Chesapeake Bay area. It is 
an incredibly valuable natural resources that not only effects 
the inhabitants and the wildlife in this area, but across the 
country. We are going to continue in our efforts working 
together to try to increase sound public policy in this field.
    You and I have teamed up just a few years ago in regards to 
the farm bill, trying to increase resources under the 
conservation title, which is an important part of watershed 
management and private landowners' stewardship of their private 
lands, which also affects the runoff and the nutrients flowing 
into these water systems.
    So it is encouraging to see the interest at this level, and 
hopefully, those of you going on to school, whether it is 
technical school or a college or university, may have a future 
career path in the science and water management area. Lord 
knows, we need a lot of help, as Mr. Cardin indicated, in the 
years to come from your generation to step up and assume the 
leadership of this vitally important issue.
    So, Mr. Chairman, thanks again for holding this hearing, 
and I am happy to participate.
    Mr. Gilchrest. Thank you, Mr. Kind.
    Mr. Cardin?
    Mr. Cardin. Thank you, Mr. Chairman. I am reading the 
background document from the--is it South River--from South 
River High School, talking about the nutrient issue, which is 
very well done. The nutrient problem is a very serious problem 
in the Bay. It is getting worse, not better. It is one of the 
issues where we have not made the type of improvement that we 
would have hoped when we started this effort, again, 25 years 
ago.
    You know that nutrient runoff acts basically to suffocate 
and does not allow the Bay to completely develop the way it 
needs to, whether it is the aquatic life or the vegetation. But 
to solve that problem requires a major investment. Waste water 
treatment facilities, which is one of the major ways that you 
can stop nutrient content in the Bay, requires a significant 
investment of public funds in order to modernize our waste 
water treatment facilities.
    Governor Ehrlich and the General Assembly came up with what 
we call affectionately a flush tax, but it is a tax on the 
users of waste water treatment facilities in an effort to get 
more money to modernize those facilities.
    I guess my question to you is, taxes have gotten to be such 
a terrible word in our vocabulary here in Government, but 
sometimes we need additional revenues. I am a Democrat, and 
Governor Ehrlich in a Republican. I supported his efforts to 
try to find more creative ways to get money into the 
improvement of our waste water treatment facilities.
    I think we need to talk about that directly. Money just 
does not automatically come into Government. You have to find 
ways to get it into government. Waste water treatment facility 
plants are owned privately and by governments. But to make that 
investment to upgrade the facilities will cost money. Someone 
is going to have to pay for it.
    So I would just like to know your attitude as to whether 
you think, as a society, we have an obligation to collect 
enough revenues in order to make a dent in the problems that 
are really out there with the Bay.
    Ms. Logan. Actually, I think that if you want Americans to 
give you money, you have to supply them with something that 
they like. And something that is associated with the Chesapeake 
Bay is the crabs. I mean, who doesn't like eating crabs, 
unless, in the case if seafood makes you sick or you don't like 
seafood. But if you enjoy eating crabs, if you implement, 
maybe, a tax on crabs or maybe you have a program that 
incorporates crabs or seafood in general with the tax, it would 
help bring in money for the Chesapeake Bay to help that.
    Mr. Cardin. That is a good suggestion.
    One side of the South River is in my district. The other 
side is in Congressman Gilchrest's district. I have offered 
Congressman Gilchrest to join me on a kayak as I went last year 
and looked at some of the oyster beds and saw the condition of 
some of the oyster beds. They are trying to plant seeds for 
oyster in the South River. You have to plant about 100,000 to 
get one or two to take, but it is so important for filtering 
the Bay.
    I just invite you all to get hands-on as to what is 
happening in the Bay itself, and I think it will show you just 
the damage that is done by nutrients. There are a lot of causes 
for the nutrients. Some of it is farming practices. Some of it 
is industrial pollution. Some of it is the way we treat our 
runoff from storms. And some of it is the way we treat our 
waste. Some are easier to deal with than others. We know that, 
if we make an investment in waste water, what exactly we can 
obtain in getting nutrient levels reduced.
    So I would just encourage you, as you are doing, to get 
more hands-on. I think you are exactly right. If you make the 
case, the people in our community are willing to make the 
investment if they think they will get a good return for that 
investment. But I do not think they really see the problems in 
the Bay like you have seen them. So I just would encourage you 
to continue your efforts to do hands-on and get more and more 
people in the community to understand the damage that is being 
done by the failure to address modernization of our waste water 
treatment facilities or by irresponsible use of fertilizers or 
the runoff issues by development and not being sensitive. 
Things you can do in development to minimize the damage caused 
by runoff.
    Mr. Chairman, just for the record, we have a school in 
Annapolis in which we give a very small Federal grant that they 
are using to replace concrete with gardens which run into Weems 
Creek. That is having here a major impact in trying to reduce 
the amount of runoff. These are the types of projects that make 
a difference, but it requires investment.
    Yes, the private sector is willing to come up with money, 
willing to give charitable contributions, but it also requires 
Government to be an active partner. And this money just does 
not automatically appear. It requires us to make tough choices 
here in Washington. And we need your help and your 
understanding on those choices.
    Thank you.
    Mr. Gilchrest. There is a young lady in the back of the 
room that wanted to make a comment.
    Unidentified Speaker. One of the major things with taxes is 
people want the problems to be solved, but they do not want to 
pay for it. Sooner or later, especially in our area--we are 
right on the water--they are going to have their waterfront 
property but not be able to use the Bay because it is so 
polluted. And they just will not pay for it. People do not 
realize the changes going on, and that is the major problem 
that has to get out there for them.
    Ms. Elkin. My name is Julie Elkin from Broadneck High 
School. Regarding costs and taxes, I understand it is not 
generally popular to support, but I think the question is not 
necessarily people unwilling to pay as much as being unaware of 
how critical it is. I mean, the majority, I think, here come 
from waterfront communities. And they know. In my own 
community, there are river associations that keep citizens 
informed. And those have been really helpful in getting out the 
word to citizens further inland regarding the problems.
    But if the funding is not available necessarily from taxes, 
putting it into education, that really helps if we can get out 
and spread the word. Because an aware community is one that is 
more willing to make the investment.
    Mr. Gilchrest. Thank you. Thank you very much.
    At 11:15, and unfortunately, this is the way it happens up 
here, we are going to have votes for about a half an hour or 
so. So we will, I am not sure--we have this room until 5:00, 
but we have to deal with the votes. We have lunch for 
everybody. So when the bells ring, if I could just speak to a 
couple of the teachers, especially those from Bohemia Manor and 
Pocomoke, we will try to adjust your testimony in and around 
the time we eat lunch. If you could stay--I am not sure when 
you have to leave to go back to the Eastern Shore, but as soon 
as the bells ring, we will have a quick discussion about how 
long you can stay. And we will come back here and either have 
your testimony before we eat lunch or have it right after we 
eat lunch.
    But I just had a couple of quick questions for the people 
from South River, Olivia and Bryan.
    You talked about a crackdown on marina operations for just 
a whole range of issues, whether it is pump-out stations, 
whether it is the speed in which the motor boats pass through 
or those kinds of things. Could you elaborate or give some of 
your recommendations on how you would crack down on marina 
operations?
    Ms. Logan. It was actually marine sanitation devices, which 
is kind of like that. We said some of the preventable problems 
were sewage discharge, failure to meet EPA standards which 
would be the heads and the toilets which people get away with 
because they do not have their boat inspected. Also, the lack 
of on-shore pump-out stations or the failure to maintain or 
rinse the MSD.
    Mr. Gilchrest. Where would you require more pump-out 
stations? At private marinas, public docks? Where do you think 
they should be?
    Ms. Logan. Public would probably be better because everyone 
can use it. Now, with private, only a limited amount, but with 
public everyone will be able to utilize it, and there will not 
be any distinction or who is better, ``You cannot go to the 
private one.''
    Mr. Gilchrest. Are you aware of any pump-out stations at 
all on any public docks?
    Ms. Logan. Well, I do not have a boat, so I do not know.
    Mr. Gilchrest. Do you have a recommendation on who would 
operate that pump-out station on a public dock?
    Ms. Logan. DNR, or, you know, it would even be a great 
summer job, get a nice tan, you know. I would do it.
    Mr. Gilchrest. You wouldn't want to overdo it. Make sure 
you use that sunscreen.
    A question about the bulkheads, uniform bulkhead policy. I 
think that is an excellent recommendation, but the creation of 
the uniform bulkhead policy, I think the kind of bulkhead would 
be pretty important as well. Mr. Cardin mentioned something 
about natural, creating a natural bulkhead to reduce sediment 
being washed in. And those 4-by-4s or 6-by-6s that a lot of 
people use may stop some erosion, but they are also wood that 
is treated with creosote. Sometimes, if it is a rock bulkhead, 
that would eliminate the possibility for a full range of 
species from moving, marine species from moving on that 
shoreline.
    Do you have any recommendations for the kink of bulkhead 
that would be used?
    Mr. James. Well, I do know that the bulkhead we have in 
most houses around our community, they have a special kind of 
treated wood that is conducive to the environment of the Bay. 
It is not going to contaminate it. Capitol Marine is the one 
that does that. I do not know about the others.
    A big problem is people without permits putting their own 
bulkheads in and things like that. It is really unregulated, 
and people just do it.
    Mr. Gilchrest. So do you see that as a State issue or a 
county issue?
    Mr. James. I think it is more of a county issue. One of the 
problems is DNR does as much as they can, but if you only have 
one guy on a Boston whaler patrolling three rivers and pulling 
the guy over on a jet ski while someone is building a dock 200 
feet out into the water--
    Mr. Gilchrest. Anne Arundel County right now does not have 
a uniform bulkhead policy?
    Mr. James. Correct. Also, you can see when bulkheads are 
put up by the people themselves, and they do nothing.
    Mr. Gilchrest. Would this be a recommendation that you and 
your fellow students could make at a county council meeting in 
Annapolis for Anne Arundel County?
    Mr. James. It could be.
    Mr. Gilchrest. I would also encourage, and maybe I will 
write a letter to the county executive and the county council 
for each of the areas that all of the students here represent 
to have you go in and talk to the county council or the county 
commissioners or the town council or whatever, because the kind 
of information that you have here is not broadly understood 
among a lot of elected officials or the general public.
    One final question that any one of the panelists can 
answer, has there been any thought in your discussions about 
the Chesapeake Bay concerning invasive species? On the Eastern 
Shore we have this little critter known as nutria. All over the 
Bay, we have phragmites, and now we are hearing about 
snakeheads.
    Do you want to make a comment about anything related to 
invasive species and the health of the Chesapeake Bay?
    Mr. James. I do know in our area, the mute swans, they are 
not native to the area, what they do a lot of times--
    Mr. Gilchrest. Can you speak up for the gentleman from New 
Jersey? We discuss that issue sometimes.
    Mr. James. They are eating the aquatic vegetation. That is 
not leaving enough food for all of the native species. That is 
wiping them out.
    Plus, it is also contributing to erosion, because when 
those things are being ripped out by roots, it just damages all 
the soil around it, and it makes it a lot softer, a lot less 
solid, and it roots it out. We have about six of them coming 
out. They come around and eat everything, so that is the 
biggest.
    Mr. Gilchrest. What do you do to those mute swans?
    Mr. James. Basically, I let the dog out the backyard, and 
he chases them off.
    Mr. Gilchrest. What a good idea. We had a hearing last week 
on the Migratory Bird Treaty Act which, based on a court 
decision, protects mute swans and other native migratory birds 
that might come here from Canada or even Alaska.
    Mr. James. The problem with the mute swans is they are not 
native at all, and they destroy other habitats. I have seen 
them go and turn over duck nests and things like that and 
destroy them. We have muskrat nests along the waterway. They go 
and destroy those, looking for food. They are basically just a 
destructive force.
    Mr. Gilchrest. Do you have a recommendation, anyone in the 
audience, about what to do with invasive species like mute 
swans?
    Well, anyway, you have all done a fabulous job here this 
morning. As usual, the hearings take a little while. We have 
more questions than we have time for.
    But if anybody--Mr. Pallone, Mr. Cardin--any further 
questions for the students?
    Thank you very much. You have done an excellent job here 
this morning.
    Any further recommendation for us before this panel 
concludes?
    All right. Well, thank you very much. I think we will have 
time to introduce the next panel, and we will go as far as we 
can before the bells ring, and then we will sort of discuss how 
we will proceed the rest of the day.
    Christian, Jamie, Olivia, and Bryan, thank you very much.
    Mr. James. Thank you.
    Ms. Logan. Thank you.
    Mr. Gilchrest. Our next panel will be Sarah Lucs-Haji and 
Charlotte Sanford-Crane, welcome, and Leslie Levin and Kenneth 
Nugent. Sarah and Charlotte are from Chesapeake City, a 
wonderful little spot on the Eastern Shore, and Leslie and 
Kenneth are from Pocomoke High School, Pocomoke, Maryland. 
Thank you very much, and welcome.
    We can begin with Sarah and Charlotte.

   STATEMENT OF SARAH LUCS-HAJI AND CHARLOTTE SANFORD-CRANE, 
      BOHEMIA MANOR HIGH SCHOOL, CHESAPEAKE CITY, MARYLAND

    Ms. Lucs-Haji. Thank you.
    Ms. Sanford-Crane. I am Charlotte. Thank you very much for 
having us here.
    We would like to talk to you today about our watershed at 
the Bohemia Manor High School community.
    The picture you can see there of the bridge, that is about 
half a mile from our high school. It is right there. We could 
probably walk.
    Ms. Lucs-Haji. Our tributaries that surround our school, 
there are four main ones. The first one is the C&D Canal, which 
you saw on the first slide, and that is located right at the 
intersection. The second one is the Bohemia Manor River, and 
this is another major tributary that boats go down. But the 
major commerce is through the C&D Canal. The third is the Elk 
River, and the fourth is the Sassafras River. They are all four 
major tributaries of the Chesapeake Bay.
    Ms. Sanford-Crane. We have three main problems that we 
found with our area. The first is water pollution, and this is 
of the surface and ground water. This includes runoff, 
nitrogen, phosphorus, Mercury, other organic material, and also 
bacteria. There has been E. coli found on some of our beaches, 
such as Crystal Beach and Grove Neck, which are all places 
around our school. And that is not a good thing for swimmers 
and people who actually live on those beaches all year-round.
    The second main problem were invasive species, such as 
phragmites and cattails that have kind of taken over everything 
that is trying to grow native. And there is nutria, too. That 
is the rodent-like thing on the bottom. They were brought over 
for fur, but nobody actually likes their fur, so they let them 
go. And they are kind of everywhere.
    The third problem is loss of habitat, and this is bad 
because, well, we need habitat for the animals to live and for 
the oysters to clean the Bay and for everything.
    Ms. Lucs-Haji. Our human causes are the population, urban 
sprawl. Cecil County is the fifth on the State's top 10 list 
for growth. It has doubled in the past year.
    Sewage treatment causes lacks in this, too. There are so 
many houses that are being built, and there is not enough 
septic treatment plants to take all the sewage. So many people 
have illegal septic systems that are aging or overcapacity.
    The Elkton plant that is located 15 miles from our high 
school has been marked unacceptable a couple of times where it 
discharges more--it discharges 8.1 million grams per liter of 
nitrogen into the water. And 3 milligrams are acceptable.
    The septic systems are not maintained, and that is a major 
problem, because it adds nitrogen and phosphorus into our bay.
    The commercial shipping and recreational boating is another 
problem. The C&D Canal has many boats that come through, and 
they bring ballast water and have invasive species that fall 
off with it. Litter, oil and sewage also come into our bay from 
the C&D Canal.
    Dredging. This was another topic. Maybe 3 years ago when I 
moved into the area, the C&D Canal was dredged, and many 
animals were displaced. And the ecosystem has thus recovered, 
but not quickly.
    The fourth one is farming. We have farmers that live around 
our area, but they are more aware of the nitrogen that they put 
on their fields and the chicken waste. So I don't think they 
are the main culprits. I think that the sewage treatment plants 
are the main culprits in our area.
    Ms. Sanford-Crane. Solutions. We came up with some 
solutions to help with these problems. In order to help the 
habitat destruction, we thought that we should help with the 
smart growth, which is what we were talking about before here 
with the houses and less yard and all of that, and also land 
conservation.
    There is a big program where we live where people try to 
buy the farmland. They do not buy the land, just the rights. So 
the farmers still live there, but they can't subdivide it and 
make it into lots of little houses. It has to stay as a farm.
    Also, there is down-zoning, which is a big buzzword around 
our area now. And the other thing is sewage pollution. To help 
with that, the big thing is, we really need to update the 
sewage plants, which is pretty spendy, but that is really the 
only answer to help, is build new ones and fix the ones we 
have. There is new technology that can really help with the 
nutrients, but it has just been implemented.
    Also, we should raise the perk test standards. Right now, 
they are really low, probably because our area has very clay-
like soil and in other areas, very sandy soil. And right now, 
the current standards say that is OK. And the sandy soil, when 
they do the perk tests, the water just runs right through. So 
our standards say, ``Well, that is fine, it went through.'' but 
they do not realize that it has not had time to get filtered.
    The farmers, as we said before, they are already pretty 
well controlled. They have best management practices. We are in 
a very rural area, so the great majority of our 150 watershed 
school area is farmland, but they all use best management 
practices, or at least quite a few of them do, where they try 
to plan out how much fertilizer they actually need and how much 
it is going to cost them. And they really do a good job of 
rotating crops and all of those good things.
    For the boating and shipping, what we need are stricter 
boating regulations and a clean list of species. What that is 
is--right now, there is a dirty list, as in well, we know 
nutria are bad now, so we won't bring anymore in. But what we 
should have is a clean list where we only let things in that we 
know are good. Because how do we know the next animal that 
someone decides to bring over is going to be good or bad? And 
we do not know. So we let it over until we realize, oh, no, it 
got away, and it ruined everything, better not let that happen 
again. So that would really help stop anymore invasive species 
from coming over.
    We also believe the educational programs are very 
important. These can be things like bay schools, which we 
discussed earlier. Our middle school is a bay school, and we do 
projects like going to Smith Island and also community 
environmental clubs, just to get the community involved and 
aware. We don't have anything like that in our area, where 
everyone can come together and talk about what they can do to 
help. So that would be nice to have.
    And the last solution would be legislation, such as the 
Clean Water Act, which was just passed. And that would help 
control all of the pollution happening.
    Ms. Lucs-Haji. Funding. Well, on the State tax level, the 
flush tax has already been implemented. And that is on average 
$2.5 a month for the average homeowner.
    The septic pumping service, this is still under Tax and 
Licenses. The septic tax service should be passed on to the 
actual homeowners, not the county. So it is equally divided 
into the actual people that live in the area, because they do 
not pay anything. The Federal income tax credit should be 
applied to taxes on the licensings, boating, fishing, and 
hunting.
    A tax break should be used for upgrading septic systems. 
Maybe people that feel the need to upgrade their septic system 
and selling their land rights, maybe for more environmentally 
safe areas and an energy tax cut credit, just to make our area 
environmentally friendly.
    Grants, the school community and educational programs have 
been given grants in the past, but I think there should be more 
that should be implemented. Through our local government, we 
need help with our septic systems.
    So much urban sprawl and our septic systems are aging, and 
the Chesapeake Bay grants to aid--the Chesapeake Bay Agreement 
that was funded by Congress in 2000--critical areas in our area 
that developers are trying to harm with urban sprawl. And they 
are going to do this because there is no one stopping them, and 
the land has not been set aside.
    Ms. Sanford-Crane. OK. Are there any questions?
    [The prepared statement of Ms. Lucs-Haji and Ms. Sanford-
Crane follows:]

           Statement submitted by Bohemia Manor High School, 
                       Chesapeake City, Maryland

          Contact/Advisor: Cheryl Lee, Lead Science Teacher; 
                     e-mail address: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="452629202005262635366b2a3722">[email&#160;protected]</a>

                 Students: Sarah Lucas-Haji, Presenter

                             Peter Carrion

                            Brandon Husfelt

                        Charlotte Sanford-Crane

                              Julia Stone

                           Ashley Subolefsky

   The Chesapeake Bay in the Bohemia Manor High School Community: A 
                            Restoration Plan
1)  Our Tributaries--watershed area of high school community is over 
150 square miles
        a)  C&D Canal
        b)  Bohemia River
        c)  Elk River
        d)  Sassafras River
2)  Problems
        a)  Water Pollution--Surface and Groundwater
             i)  Run-off
                <bullet>  Sediment
             ii)  Nitrogen
            iii)  Phosphorous
             iv)  Mercury
             v)  Other Inorganic Material
             vi)  Bacteria
                <bullet>  E-coli
        b)  Invasive Species
             i)  Fragmites
             ii)  Cattails
            iii)  Other exotic organisms, e.g., Snakeheads
        c)  Loss Of Habitat
             i)  SAV
3)  Human Causes of these Problems
        a)  Population/urban sprawl
             i)  Increase in Impervious surfaces
             ii)  Loss of farmland, forests and wildlife habitats
            iii)  More pollution
        b)  Sewage Treatment
             i)  Sewage Treatment Plants
                <bullet>  Aging
                <bullet>  Over Capacity
             ii)  Septic Systems
                <bullet>  Not maintained
        c)  Commercial Shipping and Recreational Boating
             i)  Dredging
                <bullet>  Canal
                <bullet>  Elk River
             ii)  Pollution
                <bullet>  Ballast Dumping
                <bullet>  Litter
                <bullet>  Oil
                <bullet>  Sewage
        d)  Farming
             i)  Fertilizers
             ii)  Animal Waste
4)  Solutions
        a)  Habitat Destruction
             i)  Smart Growth
                <bullet>  Down-zoning
             ii)  Land Conservation
                <bullet>  Buy land rights
        b)  Sewage Pollution
             i)  Updated Sewage Plants
                <bullet>  Improve Technology
                <bullet>  Expand citizens covered by current plants
             ii)  Raise Perk test standards
                <bullet>  Sandy Soil not ok
        c)  Farmers
             i)  Best Management Practices
                <bullet>  Already implemented
                <bullet>  Soil Conservation Districts
        d)  Boating/shipping
             i)  Stricter boating regulations
             ii)  ``Clean list'' of safe species
        e)  Educational Programs
             i)  ``Bay Schools''
             ii)  Community Environmental Clubs
        f)  Legislation
             i)  Clean Water Act
5)  Funding
        a)  State level taxes
             i)  ``Flush Tax''
                <bullet>  New to Maryland
             ii)  Tax on Licenses
                <bullet>  Boating
                <bullet>  Fishing
                <bullet>  Hunting
        b)  Federal Income Tax Credit
             i)  Tax break for upgrading septic systems
             ii)  Tax break for selling land rights
            iii)  Energy Tax Credit
        c)  Grants
             i)  School/community education programs
             ii)  Local Governments
                <bullet>  Upgrade sewage treatment
            iii)  Chesapeake Bay Grant
        d)  Fund Recommendations of Chesapeake Bay Agreement (2000)
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, ladies. Excellent 
presentation.
    I think what we will do before we begin the questions, we 
will listen to Leslie and Kenneth from Pocomoke, and we will 
try to get through your testimony before we have to leave.
    So Leslie, Kenneth, you may begin.
    I would like to help the Bohemia Manor High School students 
and teachers go before the Cecil County commissioners and give 
them the same presentation. We will work on that down the road.
    Leslie and Kenneth, you may begin.

         STATEMENT OF LESLIE LEVIN AND KENNETH NUGENT, 
            POCOMOKE HIGH SCHOOL, POCOMOKE, MARYLAND

    Ms. Levin. Hi. Thanks for having us.
    Mr. Gilchrest. You are welcome.
    Ms. Levin. We will get right into it.
    Our Pocomoke River, as you can see, it starts in Virginia 
as a pretty small--
    Mr. Gilchrest. Could I just say something very quickly, the 
way you started was poetry: ``our Pocomoke River,'' it is just 
a nice way to put it.
    Ms. Levin. Thank you. It starts as a smaller river and 
eventually gets bigger as it gets toward us. It goes into the 
Pocomoke Bay. Also, the reason why it looks the way it does is 
because it goes through the Cyprus swamp, which gives it a tea 
color, which also kinds of hides the problems that we have with 
it.
    Our main problem would have to be poultry. We have 600 
million chickens, and one-fifth are raised in our counties. 
Because of all of those chickens, we have a lot of waste. And 
those chickens, the waste that they use, the farmers put it 
back on their lands to save money. There is a lot of money 
coming in from it, and people do not want to change from it. We 
have 14,000 people in our area from Tyson, Perdue and 
Mountaineer, so it helps our economy.
    This is just a picture of a chicken house.
    Where the problem comes in with the chicken waste is, we 
have 13 million pounds of phosphorus and 48 million pounds of 
nitrogen. And the problem is--and the phosphorus is going up. 
Chickens do not use as much phosphorus in their system as they 
need nitrogen, so the waste that comes out has more phosphorus. 
And that tends to be a problem.
    This is just a place where they store the waste. And the 
ground water, as you can see, 80 percent comes from underground 
sources, and one-third of that ground water has been 
contaminated from the nutrients that the manure is put on the 
fields. And it runs off and then gets into the underground 
water system.
    Solutions would be, you could burn the--find a way to use 
the manure as a fuel, or you could convert it into fertilizer 
pellets. But it would have to be regulated by either the 
Government or the county. You would have to have some kind of 
specialist that would know how much and test the soil to see 
what kind or how much they need.
    The nutrient management plan would have to be enforced for 
the farms to see that there would be no nutrients running off 
into the river.
    They found that phytase, if you add it to chicken feed, it 
reduces the phosphorus that the chickens do not use. So a way 
to kind of help that would be to give the farmers money to add 
the phytase to the waste or somehow give them advantages that, 
if they do have to pay for it, they will get something out of 
it.
    Our agriculture, as you can see, it is a very big industry 
also. With the agriculture and the farms, we have all this 
fertilizer that they have to use, and they use the chicken 
manure. Because of that, we have the nitrogen and the 
phosphorus that is getting into the Chesapeake Bay by going 
through the drainage ditches that are not monitored well. They 
get into the Pocomoke River, which causes problems also. As you 
can see, nitrogen pollution is one of the serious problems with 
the Bay.
    Phosphorus is more difficult to deal with because it is not 
as readily absorbed as the nitrogen, because it does not take 
as many forms as the nitrogen does. And phosphorus, because it 
isn't used as much, it accumulates. And there was a study done 
at UMES, which is the University of Maryland, Eastern Shore, 
that showed that there was so much phosphorus in the soil that 
collects, something like 25 years, before they needed 
phosphorus.
    And this is just what I was talking about. They found that 
gypsum could be added, and that it would help control the 
phosphorus that is in the soil
    Also, the drainage ponds would help for sediments or 
anything that is in the water, is coming from the drainage 
ditches to settle to the bottom before it would move on and 
cause any problems in the Pocomoke river and further, the 
Chesapeake Bay.
    Mr. Nugent. Sedimentation is also a big problem. As you can 
see, it comes mainly from nonpoint sources like construction 
sites, agriculture, and dirt roads and any other places that 
there is uncovered dirt. And what happens is like anything, 
like rain or even vehicles going on it--like on there--it kicks 
up a little bit of dust which then gets into water sources and 
will eventually reach the Pocomoke River and the Bay.
    And right there, you can see again how much dust is kicked 
up on just a dirt road. And some things that can be done to 
help fix this are limits that are set on exposed land and when 
cover crops should be planted on empty fields. And also dirt 
roads need to be covered up. And if they are paved, there could 
be buffer strips on the side to stop runoff or cover them up 
with gravel or other types of vegetation to stop so much 
sedimentation from being formed.
    And like Lindsey said, tannic acid is a unique 
characteristic of the Pocomoke River. From all the cypress 
trees that actually get into the river, it turns the water to a 
tea color.
    Mr. Gilchrest. Keep going.
    Mr. Nugent. And this is how the Pocomoke River got its name 
from the Native Americans who lived here. They named it 
Pocomoke, meaning ``dark water'' from that coloring.
    And like you can see there, wastewater counts for 32 
percent of the nutrient flow into the Chesapeake Bay. That 
shows to you how inadequate the water treatment plants are in 
our area, which is another big problem.
    Here, you can see that the Pocomoke River water treatment 
plant has recently been given a grant to upgrade to a 5A class 
treatment facility. And this will result in a 55 percent 
reduction in nitrogen and 33 percent reduction in phosphorus. 
And Snow Hill is also a little town on the Pocomoke River, and 
their mayor has also requested a grant to update the water 
treatment plant.
    And another problem is the old pipes, that they are 
cracked, and they leak into the groundwater which, then, in 
turn, gets into the river and then into the Bay.
    Here is another problem with the groundwater: Fertilizers 
and pesticides used by homeowners, they do not have any 
regulations. They collect in storm drains, and especially when 
there is a lot of rain, then it will just go straight into the 
river. And a solution for this is that all storm drain water 
should be sent into the wastewater treatment plant and filters. 
And that will remove toxins, fertilizers and chemicals.
    And whenever you hear about the Pocomoke River, you hear 
about Pfiesteria. And right there is a fish that has been 
infected with Pfiesteria. And in 1997, 20,000 to 30,000 fish 
died in the Pocomoke River. This is known as fish kills. And it 
has not exactly been pinpointed if Pfiesteria did this, but 
many scientists think that it was.
    And Pfiesteria is a single-celled micro-organism. And it 
has a life cycle of 24 stages. And not many stages are 
dangerous, but there are toxic stages that affect the fish and 
can even affect humans if they swim in the water or come in 
contact with it too long.
    And like I just said, it takes certain things with the 
water to let Pfiesteria reach that stage. And these are water 
temperatures exceeding 70 degrees, low salinity levels and the 
presence of large quantities of fish, which would make the 
Pocomoke River a good area for that.
    And a problem related to the nitrogen and phosphorus is 
that some Pfiesteria feeds on the algae. And the algae feeds on 
the nutrients. So when there is a lot of nutrients in the 
water, the algae grows more and leads to more Pfiesteria. And 
this is what happened in the river in 1997.
    Here is a map that shows where it was. The red box 
highlights the Shelltown Pocomoke area, site of the 1997 fish 
kills and lesion events. And some scientists hypothesize that 
the Pfiesteria weakened the fish, allowing the fungus to create 
lesions on the menhaden. And other scientists have hypothesized 
that the lesions were caused by the Pfiesteria itself, which 
would also be a big problem.
    And as a result of Pfiesteria, the American Rivers 13th 
Annual Report named the Pocomoke the third most endangered 
river in the United States, which shows how much of a problem 
it is. And even though it is so small, it is one of the most 
widely studied and monitored rivers in the United States, 
because of this Pfiesteria problem.
    And through our research, we found that education always 
comes up with a good solution to the problems. Like people 
might be aware that there are problems, but they do not know 
how to fix them. And through education, we hope that this is 
the way to go to solve these problems.
    And we have to direct it toward everyone--homeowners, 
farmers, watermen, people involved in the poultry industry, 
students, teachers and anyone who comes in contact with it. And 
an example of this is the construction workers--not pointing 
fingers at anyone--but just exposed dirt that is left for 
extended periods of time with big machinery rolling over it. 
And all the water from rain just kicks up so much dirt that, 
even if they just know that, if they are just covered up, or 
plant buffer strips, like easy solutions like that will make 
such a difference.
    Right here is an example, from the education, what can be 
solved. Right next to the Pocomoke River we have a discovery 
center that is currently being worked on. And students go 
there. And doctors are there that will teach them about the 
river and what they can do to just--during the summer, if they 
do not have something to do, they can go to help the river or 
go to the discovery center.
    [The prepared statement of Ms. Levin and Mr. Nugent 
follows:]

             Statement submitted by Pocomoke High School, 
                           Pocomoke, Maryland

                            Thomas Gladding

                              Amber Mason

                             Leslie Miller

                             Kenneth Nugent

                              Steven Payne

                             Maurice Waters

                        Mrs. Amy Lines (Advisor)

INTRODUCTION
    The Chesapeake Bay is a unique and diverse ecosystem. It is the 
largest estuary in the United States. About half of the Bay's water 
comes from 150 rivers, streams and creeks. The Bay's watershed expands 
through six states including Delaware, Maryland, New York, 
Pennsylvania, Virginia and West Virginia. The Chesapeake Bay contains 
approximate 11,600 miles of shoreline, nearly 200 miles long and 25 
miles wide at its widest point. The Bay's water capacity is 
approximately 18 trillion gallons of water.
    One of the rivers included in the Chesapeake Bay's watershed is the 
Pocomoke River. ``Pocomoke'' is an Algonquin word meaning ``dark 
water.'' The dark water of the Pocomoke is the result of tannic acid 
from falling cypress leaves, which results in a pH of 5--6 throughout 
the river. The river is nearly seventy-three miles in length and 
originates in the Great Cypress Swamp on the Delaware-Maryland border 
and flows approximately sixty miles through Maryland into the Pocomoke 
Sound at the Chesapeake Bay.
    The Pocomoke River watershed is a large area; it spans over 170,000 
acres of farmland, which consists mainly of a large poultry industry. 
The Pocomoke River is relatively narrow and very deep until it reaches 
Shelltown, Maryland where it opens rapidly into the broad and shallow 
Pocomoke Sound. The National Oceanic and Atmospheric Administration has 
recognized the Pocomoke Sound as one of the largest shellfish producing 
areas in the Chesapeake Bay The Pocomoke Sound is considered to be the 
mouth of the river and is bordered by both Virginia and Maryland.
    A unique habitat of the area is the Pocomoke River Swamp, which is 
thirty miles long and two miles wide. It contains the northern most 
cypress swamp in the United States. There are more than 27 species of 
mammals, 29 reptiles, 14 amphibians and 172 birds identified in the 
wetlands bordering the river. Pileated woodpeckers and bald eagles are 
not uncommon.
    In the 1700's and 1800's, the Pocomoke River was a trade and 
shipping route. Shellfish, tobacco, fish, cypress trees and pelts were 
harvested and shipped as far as the Orient from Worcester County's 
largest city. Over time, the forest was cut away, agriculture expanded. 
In the 1930's the government sponsored the draining of the swamp 
because of the limited amount of high ground suitable for agriculture. 
Channels and ditches were carved into the landscape. Changes in 
agricultural practices including plowing, followed due to an increasing 
demand for grain to feed the nation. Soil erosion has increased ever 
since. These changes to the landscape and harvesting of timber resulted 
in an erosion of the river's banks and a deepening of the river. Both 
of these still impact on the health of the river today.
    The National Park Service, U.S. Department of the Interior and the 
Nationwide Rivers Inventory as a ``Great River of America'' list the 
Pocomoke. The periodical ``Field and Stream'' called the Pocomoke River 
one of the ``last undiscovered rivers'' of the nation.
    Today, the Pocomoke River is challenged and threatened by faulty 
wastewater treatment, failing septic systems, the poultry industry, 
agriculture, sedimentation and channelization. In 1998, the Pocomoke 
River was named the third most endangered river in the United States by 
the American Rivers 13th annual report on America's Most Endangered 
Rivers, due mostly to nutrient problems associated with chicken manure 
and the outbreak of Pfiesteria that killed tens of thousands of fish 
and sickened watermen and boaters.

THE IMPACT OF THE POULTRY INDUSTRY ON THE POCOMOKE RIVER
    The main industry located in the Pocomoke River's watershed is the 
poultry industry. Over 600 million chickens are produced annually on 
the Eastern Shore. One- fifth of the chickens raised are located in 
Worcester and Somerset Counties, both located in the Pocomoke River's 
watershed. The chicken industry is a powerful $1.6 billion continually 
growing business. Over 14,000 people are presently employed by the 
poultry industry. The birds are raised in poultry houses owned and 
operated by small farmers who are responsible for disposing of 750,000 
tons of chicken waste per year. One method of disposal is the use of 
the chicken litter as fertilizer. However, recent studies have found 
that many areas on the Delmarva Peninsula posses two to three times 
more manure than needed to fertilize local crops.
    The water quality of most rivers on the east coast of the United 
States has improved since 1980 but the Pocomoke River's condition seems 
to have worsened. Many feel the increase in the poultry industry 
continue to affect the River. Many citizens work in the poultry 
industry and rely on this industry for their livelihood. The industry 
helps to support bankers who finance chicken houses, farmers who grow 
chickens, grain farmers, truck drivers and plant workers to support the 
chicken industry. It has been estimated that a 4 percent decrease in 
the chicken industry would wipe out thousands of jobs and up to $74 
million in economic output necessary for our area.
    The chicken industry grew by one-third from 1982 to 1997. Cropland 
was reduced by 15%. Some estimates include the doubling of chickens on 
the Lower Eastern Shore, including the Pocomoke River watershed. An 
increased demand for chicken has resulted in an increase in the number 
and size of chicken houses being built and are being built in thicker 
clusters. The chicken houses are being built closer to the 
slaughterhouses to reduce trucking distance and time. There is a 
slaughterhouse 15 miles south of Pocomoke City.
    Weather has an effect on the amount of pollutants produced by the 
production of chickens. An increase in storms sends more waste related 
materials into the Pocomoke River and its watershed. Droughts decrease 
the amount of pollutants entering the river.
    Chicken manure has higher quantities of nutrients than manure 
produced from other livestock grown on the Eastern Shore of Maryland. 
Chicken manure contains more phosphorus than nitrogen. This waste 
contains approximately 13 million pounds of phosphorous and 48 million 
pounds of nitrogen. The watershed area of the Pocomoke River houses 
over 100 million chickens and 60,000 hogs, producing close to 250 
million pounds of manure each year, along with bedding litter and the 
remains of chickens killed in production. Phosphorus concentrations in 
the Pocomoke Sound have increased more than 25% since 1985 according to 
EPA data. When a farmer applies enough manure to deliver the nitrogen 
needed by a specific crop, a surplus of phosphorus goes with it. More 
than 90% of soil samples tested by the University of Maryland Eastern 
Shore in 1997 showed elevated qualities of phosphorus.
    Air pollution directly relates to the pollution of nearby 
waterways. All chicken manure must be removed in one of three ways, 
released into the air, put it into the water or spread on the land. 
Fans are used in chicken houses to remove excess ammonia. Ammonia gas, 
which is a form of nitrogen, floats off piles of manure. It then 
settles into nearby ditches and creeks.
    Nutrient pollution also affects groundwater. Nitrates contaminate 
one-third of all groundwater in Delmarva's agricultural areas according 
to the U. S, Geological Survey. Samples taken by the USGS indicate 
nitrate levels in ground water are three to four times as much as the 
EPA considers safe. Contaminated groundwater adds to the nutrient 
pollution problem reaching the Pocomoke River and Chesapeake Bay. The 
USGS estimates that as much as 80% of freshwater that flows into 
Delmarva's rivers and streams originates from groundwater sources.
    Irrigation also plays a role in increased air pollution eventually 
settling as water pollution. Millions of gallons of treated water are 
sprayed onto fields. It then seeps into the groundwater. Some chicken 
plants spray wastewater close to the slaughterhouses and the wells 
inside the slaughterhouses have been contaminated. In some areas, this 
spraying practice has stopped but nitrate levels continue to rise due 
to the long-term movement of water.
    There is massive regulations and legislation regarding the 
production of chicken. The Delmarva Peninsula consists of three states. 
Often chicken farmers in one state find less regulation in a 
neighboring state. For example, trucks from Perdue transport millions 
of gallons of waste a year from its Delaware slaughterhouses into 
Maryland where the manure is used on farms due to a lack of regulation 
on the dumping of manure in Maryland's fields.
    The chicken industry has a very powerful lobby. Money is spent to 
back candidates who are supportive of the chicken industry. Poultry 
corporations hire lobbyists who lobby for legislation decreasing 
regulations. Advertisement, scholarships, baseball fields, support of 
Salisbury University are just some of the ways the chicken industry 
attempts to improve the image of chicken production.
    An issue related to nutrient management is the question of who is 
responsible for the massive quantities of chicken waste produced. Some 
feel the large four brand name companies (Allen Family Foods, Mountaire 
Farms, Inc., Perdue Farms, Inc, Tyson Foods, Inc.) that own and market 
the birds and earn $1.6 billion a year should be responsible for the 
waste. Others feel the local farmer, who is under contract with the 
large companies and raises the chickens, is ultimately responsible for 
dealing with the manure. At this point, the growers own the waste and 
must deal with it. They must deal with chickens that die before they 
reach maturity. As a result of this decision, chicken manure is 
scattered on thousands of farms throughout the watershed and monitoring 
is almost impossible.
    The only solution that may be feasible and ultimately good for the 
environment is to find alternative uses for chicken waste projects such 
as burning it as fuel or converting it into fertilizer pellets that can 
be economically trucked away as compared to heavy loads of manure. This 
process could be more feasibly accomplished if the large industries 
``owned'' the manure and it was kept at a limited number of facilities. 
The industry has the resources necessary to develop alternative uses.
    The most recent Maryland law, in effect as of 2004, forces all 
farmers to test their soils and apply no more manure than the crops 
need. A nutrient management plan must be developed and kept by each 
farmer. As a result some farmers who now rely on chicken manure will 
have to replace it with commercial fertilizer to get the nitrogen 
needed without the excess phosphorus not needed.
    One other helpful method to decrease phosphorus is adding an enzyme 
called phytase to chicken feed. The phytase helps chickens digest 
phosphorus limiting the amount of phosphorus that ends up in the 
chicken manure. Due to the expense of adding this extra component to 
chicken feed, the legislature reimburses half the costs of the phytase.
    Tax benefits and grants could encourage research and development of 
alternate uses for manure. This is extremely complex issue. The bottom 
line is the chicken industry is an integral component of people living 
in the Pocomoke River watershed. Discussions result in hot debates on 
both sides.

AGRICULTURE
    One of the leading causes of pollution in the Pocomoke River and 
the Chesapeake Bay is the result of agricultural practices. Water 
carries pollutants long distances, and once pollutants get in water, 
they are very hard to remove. Nutrients, pesticides, sediments and 
pathogens used in agriculture move from the land and into the 
watersheds of tributaries, including the Pocomoke River, and from there 
they find their way into the Chesapeake Bay.
    Agriculture contributes about 44 percent of the nitrogen and about 
56 percent of the phosphorus entering the Chesapeake, according to Bay 
Program figures. In Maryland, agriculture contributes about 38 percent 
of the nitrogen and 55 percent of the phosphorus. Yet more than half of 
the fertilizer applied by farmers is never used by plants and 
percolates into groundwater, nearby ditches and ultimately into the 
Pocomoke River.
    Fertilizers are used to promote plant growth. Nitrogen and 
phosphorus are common ingredients. When fertilizers are applied 
improperly and the plant cannot use them, they leach into the soil. 
When the plant cannot use all the fertilizer applied, the result is 
runoff. These chemicals support algae growth leading to eutrophication.
    According to the Chesapeake Bay Foundation, nitrogen pollution is 
the most serious pollution problem for the Bay because it causes algae 
blooms that consume oxygen, which lowers dissolved oxygen levels so 
severely that fish and shellfish die. The majority of nitrogen 
pollution comes from sewage treatment plants, large-scale animal 
operations and agriculture.
    There are many different sources of fertilizer used to supplement 
the nitrogen contained in soil. The most common soil fertilizers can be 
categorized as either inorganic or organic fertilizers. Inorganic 
nitrogen fertilizers often have the advantage of being concentrated 
sources of nitrogen and, therefore, a smaller amount is needed and 
transportation costs are lower. Nitrogen fertilizers are also mixed 
with fertilizer materials containing phosphorus and potassium to 
produce a fertilizer blend. Common disadvantages of inorganic 
fertilizers are often associated with poor management such as applying 
too much nitrogen fertilizer.
    Organic nitrogen fertilizers often have a relatively low nitrogen 
content and, therefore, they are often applied to the soil in large 
quantities. They have the advantages of adding organic matter to the 
soil thereby improving soil physical, biological and chemical 
properties for plant growth.
    Nitrogen is applied by farmers in the Pocomoke watershed in two 
forms, as both organic and inorganic fertilizers and as chicken manure. 
Over application of fertilizers poses a threat to the environment by 
increasing the risk of surface runoff of nitrogen into the Pocomoke 
River and there is also the risk of nitrogen leaching into the 
groundwater.
    More funds for research and adjustments made to agricultural 
practices may help lead to some methods of decreasing nitrogen. Losses 
to the environment can be minimized by crop rotation, planting cover 
crops, soil testing and ploughing in crop residues.
    Excess phosphorus is much more difficult to deal with than 
nitrogen. Phosphorus is vital to root growth, seed formation, and 
increases disease resistance. Phosphorus is added to the soil to help 
plants absorb nutrients. Without it, more nutrients are lost to the 
environment. For most effective use of phosphorus, the fertilizer needs 
to be placed to ensure quick contact by growing roots and minimal 
contact with the soil. On agricultural land when annual application of 
phosphorus exceeds its removal by crops, then phosphorus will 
accumulate in soils.
    Fertilizers containing phosphorus are not only used by farmers but 
are used as feed for livestock as part of poultry and hog feed. The 
digestive tracts of pigs and chickens do not adequately absorb 
phosphorus so phosphorus is added to the diet of chickens and hogs 
increasing the phosphorus in their manure.
    Scientists at the University of Maryland Eastern Shore are studying 
methods to reduce runoff resulting from phosphorus used in fertilizers. 
One new control method being studied is the use of gypsum. Gypsum is a 
combustion by-product, which means that it is formed when coal is 
burned. Most phosphorus initially added to land through fertilizer or 
manure reacts with soil components, converting to an insoluble form or 
attaching to soil particles. Studies at University of Maryland Eastern 
Shore show gypsum, when spread on the soil, significantly impairs the 
vertical movement of phosphorus into the water table. Another advantage 
to use of gypsum is its cost; it is very cheap. Scientists at UMES only 
had to pay for the truck to deliver this by-product.
    One of the main crops grown on farms on agricultural lands near the 
Pocomoke is soybeans. This crop is used for forage for livestock. On 
local farms, the new soybeans could be grown to produce forage that 
could be baled or cubed for shipping to other areas. There are three 
new ``giant soybeans'' which may actually pull more phosphorus out of 
soils than conventional soybeans usually grown for grain. The 
exceptional growth of these giant soybeans could make them useful in 
our area as well as decrease phosphorus in nearby waters.
    Farmers in low lying, flat agricultural areas around the Pocomoke 
River use ditches to drain excess water off the fields. These ditches 
usually have very few if any buffer zones to assist in the absorption 
of fertilizers and nutrients. As a result, the level of fertilizers are 
concentrated in these drainage ditches which flow unobstructed directly 
into the Pocomoke River. A proposed solution is to reexamine drainage 
ponds. In the past farmers mishandled the drainage pond by using them 
for aquaculture and the fish. The fish often died, fouling the ponds 
and creating more problems. Drainage ponds act as storage units and 
allow the nutrients to settle before they flow into the river. 
Scientists are then examining the possibilities of dredging the bottom 
of the ponds and reusing the nutrients built up on the bottom. SAV's 
planted in these ponds also absorb nutrients and prevent them from 
flowing into the River.
Sedimentation in the Pocomoke River and Chesapeake Bay
    Over the past 100 years, the net deposition of sediment entering 
the Chesapeake Bay from the Maryland portion has been estimated to be 
approximately 155 million metric tons. Scientists believe that 
sedimentation rates have continued to increase since colonial time due 
to an increase in population, logging, agriculture and different land 
uses.
    The term ``sediments'' refers to any loose particles of clay, silt, 
sand and other substances that are suspended in the water and 
eventually settle to the bottom of a body of water. Sediments pose a 
serious threat for bodies of water including the Pocomoke River and 
ultimately the Chesapeake Bay. Sedimentation in the Pocomoke River is 
mainly derived from nonpoint sources including construction sites, dirt 
roadways, and agriculture
    Massive quantities of sedimentation in the Pocomoke may cause 
problems ranging from clouding the water a bit, to smothering plants 
and animals at the bottom of the river. The clouding of the water may 
presents problems by blocking the sunlight to submerged aquatic 
vegetation necessary for photosynthesis. Sedimentation may not be as 
apparent in the Pocomoke River as it is in the Chesapeake Bay because 
the Pocomoke River is one of the Eastern Shore's ``black rivers.'' Its 
tea color, characteristic of cypress swamps, comes from tannic acid in 
the roots and decaying leaves of trees and plants that line its banks. 
This darkened color means that light has never penetrated very deep and 
it is unlikely there was ever sufficient deep light penetration that 
would have permitted the presence of submerged aquatic vegetation. The 
natural dark color of the river makes it appear sedimentation is not a 
problem because it is not as apparent.
    In the Pocomoke River, the size of each sediment particle is 
complicated by the fact that the individual sediment particles have a 
large surface area. These sediments act as chemical sinks and absorb 
fertilizers and pesticides from nearby farms. The pesticides cling to 
the particle and slowly release high concentrations of nutrients over 
an extended period of time. As a result of the size factor of the 
particles, sedimentation increases the nutrient content in the Pocomoke 
River.
    The release of sediments into the environment is the result of a 
variety of activities. Sedimentation from natural sources accounts for 
30% of sedimentation production from man induced activities accounts 
for 70% of sedimentation production. One of the main causes of this 
form of erosion is due to farmer's fields lying next to the river. The 
increase in development on the river itself and the lack of sufficient 
buffers result in an increase in sedimentation.
    Weather conditions increase sedimentation. Weather conditions 
including temperature, storms and humidity may increase the rate of 
sedimentation. Precipitation moves soil great distances and ultimately 
these particles end up in the waterways. Once the sediments arrive in 
the Chesapeake Bay there are few ways to filter the amount and size of 
the particles out of the water.
    Construction sites expose large amounts of sediments as a result of 
the movement of land. On a construction site, the first thing that 
takes place is the removal of all vegetation in the area. With this 
removing process, the roots that usually hold the soil in place are 
torn out of the land and the soil becomes loose and easier to move. 
During periods of construction, unprotected soil is usually left 
uncovered for long periods allowing the wind to lift the exposed 
sediments and carry them to the river. Runoff from construction sites 
can be 2,000 times greater than erosion occurring in woodland. The term 
``run-off'' is used to describe sand and loose soil left on the land 
surface which can easily able to be washed by rain and water into the 
near by waterways.
    A possible solution may be a training course for builders and 
construction site workers in sedimentation reduction followed by a 
certification presented for completion of the course. This practice has 
already been implemented by the Coastal Bays program and has 
participation in the training has shown to be successful.
    Agriculture is a major contributor of artificial sedimentation 
similar to construction sites. Fields are harvested or cleared, 
exposing the soil and making the soil susceptible to run-off. Cover 
crops may not be planted immediately. Run-off from farmlands near the 
river usually runs into channels and then run straight into the river, 
carrying fertilizers and pesticides with it. Therefore, sediments are 
carried to the river along with toxins.
    Limits need to be set on how long land may be exposed for 
construction and farming. Recently,(March 2004) sediment goals have 
been set. The first step of these goals is reducing from 5.05 million 
tons of sediment to 4.15 million tons of sediment that annually washes 
into the Bay from major tributaries. The second step of these goals 
involves shoreline erosion where reductions are being set on a case-by-
case basis to help restore historic levels of grass beds, (Bay journal 
Marc 2004, pg. 16).

WASTEWATER TREATMENT
    The Pocomoke City water treatment plant treats 1.2 million gallons 
of wastewater. The treatment plant has recently been upgraded from a 1C 
class to a 5A class plant. This means wastewater will now receive the 
third stage of treatment. The tertiary stage used in Pocomoke's water 
treatment includes the implementation of a Biological Nutrient Removal 
(BNR) system. The goal of the plant is to decrease the total annual 
nitrogen discharge to an average of no more than 8 mg/L. That is a 
reduction of 55 percent of the nitrogen and 33 percent of the 
phosphorus. It is expected to be up and running by June 2004. 
Wastewater accounts for 30% of the nutrient flow into the Chesapeake 
Bay
    The Pocomoke City storm drains, like many other towns in the 
Chesapeake watershed, flows directly into the Pocomoke River. There are 
catch basins that collect debris and trash, and then the water goes 
into the river untreated. This filtered water still has liquidated 
toxins including fertilizers and pesticides used by homeowners. From 
these fertilizers, comes large amounts of nitrogen and phosphorus, 
nutrients associated with problems in the Pocomoke watershed. Solutions 
to the storm drain problem should include sending storm water to the 
water treatment plant to eliminate toxins, metals, and chemicals still 
present in the water
    Pocomoke River State Park is located on the River and has 
approximately 250,000 visitors annually. The wastewater is treated 
through a septic system that is not checked annually. Therefore, this 
wastewater has may seep into the ground water and eventually run into 
the river. This septic system has 14 tanks allowing for drainage, one 
tank for each building according to the building's square footage. The 
drainage fields are only a few acres in size and are within several 
hundred feet of the Pocomoke River. The septic system at Pocomoke River 
State Park needs to be examined to meet the growing needs of the Park 
and the effect of the wastewater on the river. This treatment should 
include an updated plant sized to accommodate the sewage flow. If a 
modern wastewater treatment is not built the drainage fields should be 
relocated further from the River to prevent any seepage.
    Snow Hill is located on the banks of the Pocomoke River with a 
population of approximately 2, 400. The town manager has requested a 
grant of six million dollars to help update wastewater treatment. Snow 
Hill has cracked sewage pipes, and sewage is drained right into the 
river. The treatment plant needs to be updated in order to reduce 
nutrient problems. If the town of Snow Hill receives money for the 
sewage treatment plant, nutrient overload Pocomoke River would be 
greatly reduced.
Oysters
    A little known fact is the common oysters may be another possible 
solution for the problems of the Chesapeake Bay. In the past, the 
Pocomoke Sound was a major supplier of oysters. Oysters serve many 
important purposes in the Bay. Not only are they beneficial to the 
economy surrounding the Bay, but they also serve many important 
ecological purposes. For over 100 years, Chesapeake Bay watermen have 
made their living fishing and harvesting oysters. Until the mid-1980's, 
oystering was the most valuable commercial business in the Bay. Despite 
their economical importance, oysters are most beneficial in the 
ecology.
    Oysters eat by filtering the nutrients they need out of the water. 
This not only gives the oysters food, but also cleans the water. 
Filtering takes excess nutrients out of water, settles sedimentation, 
and helps clear the water. Whatever the oysters don't consume gets 
deposited at the bottom of the body of water, where it is not harmful. 
According to the Chesapeake Bay Foundation, an adult oyster can filter 
an average of 60 gallons a day. In fact, before oysters were fished, 
the population of oysters would be able to filter the volume of the 
whole Chesapeake Bay, about 19 trillion gallons, in a mere two or three 
days. Now because of over fishing and diseases, it would take the 
remaining oysters up to a year to filter the Bay.
    Another way oysters help keep a healthy ecosystem is by providing a 
habitat for fish. Groups of oysters will form oyster beds, a favorite 
living area and hunting area for a variety of fish. The fish that live 
in these oyster beds sometimes feed on the nutrients and sediments that 
oysters miss, which further serves to clean the water in the Bay.
    Despite being a very resilient species, the oyster population in 
the Bay is rapidly disappearing. One obvious reason for the decreasing 
population is the over harvesting and over fishing. During the 
twentieth century, oysters were the most harvested animal in the Bay. 
Loss of habitat is also making it harder and harder for oysters to find 
a place to live. The tremendous amount of pollution getting into the 
Bay is just another element oysters have to fight. Parasites have been 
killing many oysters.
    Two specific parasites have been the worst so far. These two 
microscopic predators are known as Dermo, Perkinsus marinus, and MSX, 
known as multinucletedsphere x. These diseases thrive in waters with 
high salinity and temperatures above 68 degrees Fahrenheit. These 
diseases have been documented as early as the 1950's, but really hit 
hard in the 1980's.
    These parasites are truly devastating to Crassostrea virginica, the 
oyster native to the Chesapeake Bay. However, oysters from different 
parts of the world have developed immunities. One such species is the 
Asian oyster, Crassostrea ariakensis. Some groups, including the 
Department of Natural Resources, Gov. Robert Ehrlich, and the Virginia 
Marine Resources Commission strongly support the proposal to 
artificially introduce this alien species to our ecosystem. They say 
that this new species will theoretically take the place of the old 
species if the old species can't make it. The Asian oysters will thrive 
despite the parasites, and the population of oysters will increase. 
This will help keep the Bay clean because the oysters will once again 
be able to filter the water. This also helps the Bay ecosystem by 
replacing the habitats oysters provide. Government officials also hope 
that more oysters will help the economy.
    There are also some groups fighting the introduction of this alien 
species. Many scientists and environmentalists are urging that it is 
too early to determine if this other species will actually help the 
environment. They want more tests to be completed before any actions 
are taken. They are afraid that artificially introducing a species may 
throw off the very sensitive balance of the ecosystem. These people are 
also afraid that the cost will be greater than the profits. There may 
be an economic benefit if these oysters do work, but it will cost 
millions to discover if these Asian oysters are compatible.
Pfiesteria and the Pocomoke River
    Pfiesteria piscicidea is a single-cell microorganism. It has a very 
complicated life cycle that includes at least 24 flagellated, amoeboid 
and encysted states or forms. They may live for years in a tiny, cyst-
like shells buried in river bottom sediments. If many conditions come 
together, the cyst-like shells hatch. The conditions must include a 
water temperature of 70 degrees or above, elevated levels of 
phosphorus, ammonium and suspended solids, moderate to low salinity 
levels, increase rainfall or runoff, and the presence of fish in 
particularly large number. Pfiesteria is very sensitive to elevated 
phosphorus enrichment. It seems to respond more to phosphorus at higher 
levels than it does to nitrates.
    Excrement of fish, especially when they are found in large numbers, 
in an area where Pfiesteria are present, trigger the encysted cells to 
emerge and become toxic. Fish excrement can also cause another stage of 
Pfiesteria to develop. The small single cells swim toward fish prey and 
give off toxins in to the water. These toxins make the fish lethargic 
and often cause bleeding sores and hemorrhaging. Once the fish are 
sickened the Pfiesteria feed on the epidermal tissue, blood and other 
substances that leak from the sores. Dead fish cause the flagellated 
stages to transfer to a different amoeboid stage, which feed, on the 
fish remains. If conditions become unfavorable or food supply 
diminishes, the Pfiesteria develop a protective covering and sink back 
to a dormant cyst state in the bottom of the river. Pfiesteria may 
change forms in a matter of hours.
    Pfiesteria also affects humans. Dr. JoAnn Burkholder of North 
Carolina State University indicates symptoms associated with exposure 
include short term memory difficulties and respiratory problems. Nausea 
and vomiting, eye irritation, suppressed immune system are other 
symptoms may exposure to Pfiesteria. In 1997, 20,000-30,000 fish were 
killed in the Pocomoke River and 13 humans were sickened. As a result 
of the fish kill in 1997 and the possible risks to humans a seven mile 
stretch of the Pocomoke River was closed for five weeks.
    The Pocomoke River has received considerable attention and study 
after the initial reports of Pfiesteria. Temperature, salinity, 
precipitation, and water quality parameters including dissolved oxygen, 
nitrates, phosphates and turbidity are being monitored. In July of 
2000, 9.6% of menhaden captured in the lower Pocomoke River showed 
ulcerative lesions. The majority of these fish were menhaden. 
Pfiesteria has been found in the river but not in its toxic stage. The 
conclusions drawn from this study include the belief that fish lesions 
were not the result of Pfiesteria.
    The United States Geological Survey found high levels of arsenic 
and selenium present in the Pocomoke River and these two elements are 
known to stress fish and reduce their immunity to disease. It is 
hypothesized the fish are then more susceptible to fungus and bacterial 
invasions. Arsenic is added to chicken feed to kill parasites and 
promote growth and may be the source of the elevated levels of arsenic 
and selenium.
    The only factor that humans can influence is nutrient levels. 
Nutrient levels in the Pocomoke during the summer of 1997 were high as 
compared to other areas in the Chesapeake's watershed.

CONCLUSION
    Over the past fifty years we have become aware of the deteriorating 
health of the Chesapeake Bay. The Bay went through a period of rapid 
deterioration between 1950 and 1980. The Bay has changed from an 
ecosystem with clear water and extensive fields of underwater grasses 
and vast expanses of oyster beds to its present condition. It had a 
sustained population of fish and wildlife. Poor water quality, 
overharvesting and disease has taken its toll on the Bay. For two 
decades there has been considerable effort to restore the Bay but there 
has been only moderate improvement.
    In 2001, the Chesapeake Bay Foundation's State of the Bay Report 
concluded the health of the Bay is still on the decline. The more we 
study the Bay, the more we find the harm people have caused this 
estuary and how difficult it is to repair the damage.
    The main problems facing the Bay must be addressed by the states in 
the watershed representing the different perspectives of the people who 
live there. Each group has a different approach to solving the 
problems. So what can be done to meet the needs of the Bay and still 
satisfy the diverse population? We cannot afford to lower the bar or 
give up.
    In 1933, the first regional conference was held to address the 
overall health of the Chesapeake Bay. The second major push for Baywide 
management took place in 1965. At this time, the U.S. Army Corp of 
engineers did the first study of the present and future conditions of 
the Bay. Their report was completed in 1977 and led to further Bay 
Agreements. Since their final report, there have been three Bay 
Agreements, 1983, 1987 and 2000. The most recent Agreement has 
developed specific commitments and addresses living resources, habitat 
restoration, water quality, land use and community management. Further 
studies have been completed to project the state of the Bay to the year 
2020. The goal of the Bay Agreements attempt to develop legislation and 
regulations that cross state boundaries. $282 million in federal monies 
has been used to fund restoration programs for the Bay. The federal 
government must also expect the states to develop programs. It has been 
estimated that Maryland will spend $6.30 million a year for Bay 
programs. Other states have not made the same commitment.
    The Chesapeake Bay Foundation was established in 1967. This 
nonprofit group has stated that it will take at least $8.5 billion 
dollars to meet the goals set by the Chesapeake Bay Agreement by the 
2010 deadline.
    It seems to us that identifying the problems associated with the 
Chesapeake Bay and the Pocomoke River is the easiest part of the 
solution. We understand how difficult it is to ask farmers to change 
their practices. We understand how important the poultry industry is on 
our local economy. Our economy is strongly influenced by tourism. We 
all use and enjoy the Pocomoke River. It seems it is necessary to find 
alternative methods to make it feasible for each of the interest groups 
to improve their role in improving the quality of the Pocomoke River 
and the Chesapeake Bay.
    Education of all people in the Bay's watershed is crucial. The 
Delmarva Discovery Center will be opening in 2005 in downtown Pocomoke. 
This Center has many different goals but its main objective is to 
educate the people in the Pocomoke watershed on their impacts on the 
river. This innovative program will include educational programs for 
local citizens, students and teachers. The Pocomoke River is one of the 
most beautiful rivers that flow into the Chesapeake Bay. The Discovery 
Center is an exciting program that will reach our citizens and 
hopefully the Pocomoke River will return to its place as one of 
America's most beautiful rivers.
                                 ______
                                 
    Mr. Gilchrest. We will help encourage them.
    I--we have about 9 minutes. I have to go across the street 
to vote.
    You did an excellent job. The votes should be no more than 
half an hour. We will come back and ask you fellows questions.
    We have a House photographer here, I guess which means they 
have to take the picture now and not later. So very quickly, if 
all of you could just walk up here and stand behind us. That is 
what I am instructed to tell you. We will take the picture. I 
will come back in half an hour, and we will ask questions. I 
have about 2 minutes before we have to go.
    [Recess.]
    Mr. Gilchrest. The Committee will come to order. I trust 
everyone had a good lunch, a good break. We have about 20 
minutes to a half-hour before some of us have to move on. But I 
want to thank all of you once again for coming. And I want to 
thank Bohemia and Pocomoke for coming back from these 
questions.
    And the questions I ask, anyone on the panel can respond 
to. And certainly, anyone from the audience can respond as 
well.
    The Bohemia High School did mention, I think, invasive 
species. This is appropriate for Pocomoke also. And you 
mentioned nutria, which is that little pleasant looking critter 
that you had at the bottom right-hand corner of the screen that 
is wreaking havoc in Dorchester county and a little bit in 
Queen Anne's county. And I wonder if you know if there are 
nutria in Cecil County.
    Ms. Sanford-Crane. I haven't seen any where I live but one 
of our members said he had seen some. I don't know if they are 
a huge and widespread problem there, but I believe there are 
some that have made it up that far north.
    Mr. Gilchrest. That is interesting. And it is not 
unexpected that those are one of the invasives that could wreak 
havoc on the marsh grass, even up in Cecil County.
    Ms. Lucs-Haji. We got that picture off of a Cecil County 
web site.
    Mr. Gilchrest. Oh, you did? That is interesting. So when 
you go and testify before the county commissioners in Cecil 
County, you may want to ask them about that.
    Ms. Sanford-Crane. They make a little nest, and people 
probably think they are beaver nests, because they have flat 
things with grass on top. But they are nutria. They might not 
know that that is what they have.
    Mr. Gilchrest. That must mean that we have them in Kent 
County, if you have them in Cecil County.
    Ms. Sanford-Crane. Probably.
    Mr. Gilchrest. How about Pocomoke, any sign of nutria down 
in Worcester County that you know of?
    That is good.
    Cecil County, Chris and Jamie--I have the wrong schools. I 
guess we have the wrong--Sarah and Charlotte, you mentioned 
raising standards for perk tests before you build homes. I am 
sure that is a problem on the lower shore as well.
    Do you know how you might do that, who you would listen to 
to raise the standards? Whose suggestions? What should the 
standards be raised to?
    Ms. Lucs-Haji. Well, first of all, they shouldn't test them 
in the summer, because the water--I mean, the soil is the 
driest of all.
    Mr. Gilchrest. Very good.
    Ms. Lucs-Haji. And that is when a lot of perk tests are 
done. And a lot of it is unrecorded. A contractor might come 
out to your house and say, ``Let's do a perk test.'' it is in 
the summer. OK, it is minimal. It goes through. And then they 
probably just say, ``OK we can put a sewer system in here.'' it 
is not recorded. A lot of this is not recorded. And so I think 
we should have the perk tests recorded and done maybe in the 
spring.
    Mr. Gilchrest. So you say that when a contractor or 
someone--I think the person that does--when a contractor comes 
out to do a perk test to determine whether or not it is 
suitable to put in a septic tank, it is not recorded by the 
public works department in Cecil County or the planning office 
in Cecil County?
    Ms. Lucs-Haji. See, her septic system--
    Ms. Sanford-Crane. I have a lot of experience because we 
moved out here. And we moved to a nice little waterfront 
property, and it was so beautiful. And we got in, and the 
septic backed up. And we found out that back in the 1970s, in 
the summer after a 4-year drought, they did a perk test. They 
put in the septic system and left it at that. And it wasn't 
really meant to be that way. And we asked around and found that 
a lot of our neighbors had the same problem.
    When you are on the waterfront as close as we are, the soil 
is not very good. So our whole county we really needs septic 
help.
    Mr. Gilchrest. You probably should have had the Cecil Whig 
come up and listen to your testimony. That is a newspaper in 
Cecil County. I would like to encourage you and your teachers 
to give this testimony to a number of groups in Cecil County. 
Whether it is the Cecil Whig, the county commissioners, and 
even towns and communities where they have the town council and 
the mayor. Because I think the kind of information that you 
have presented to us today is the kind of information that 
should be widely disseminated and widely understood.
    You spoke a little bit of invasive species, and I am just 
curious to know what you think of the proposal to introduce 
Asian oysters to the Chesapeake Bay to act as a filtering 
system for the water and to help buttress or increase the 
oyster industry for economic purposes and if you have had any 
discussions on the Asian oyster versus the native oyster. Would 
anybody care to comment on that? The gentleman from the back.
    Mr. Husfelt. I am Brandon Husfelt. I am from Elkton. But I 
go to Bohemia.
    And I believe there would not be a problem with that as 
long as the Asian oysters would not adversely affect the 
Chesapeake Bay--the native. I mean, if it could be like a 
strengthening thing, it probably would be a very good thing to 
help get toxins and stuff out of the Bay and then really 
clarify some of the water and stuff.
    With the natural oysters declining, you would have--you 
need a substitute, something to take their place, or they won't 
live long.
    Mr. Gilchrest. That is very good, Brandon. I think you have 
your finger on the pulse of the problem.
    Ms. Lucs-Haji. I am against it.
    Mr. Gilchrest. OK. All right. Sarah.
    Ms. Lucs-Haji. Just because--I am not against the watermen. 
I know this is their job, and this is, you know--but I think 
they have overfished the oysters. And this is a problem. And 
this is a quick fix. The Asian oyster is just going to come in, 
and it is taking over the native species' job. But it is just a 
quick fix. It is going to be another creature to exploit.
    I don't think the watermen--this is their job. I don't 
think they are really thinking about the actual bay's health, 
because the Asian oyster will help and filter, but this is the 
Bay's health. I think the oysters should be left alone and at 
least try to be repopulated. That is all I have.
    Mr. Gilchrest. That is very good. Those are the kind of 
issues--what you just presented to us this afternoon, when we 
have hearings, we bring in people that we know have opposite 
opinions on all of these issues. And they come in and discuss 
and debate those issues right at the same table where you are 
talking about it right now.
    So when we deal with--I do want to clarify that the 
Chesapeake Bay gets a lot of Federal money, but for the most 
part, the regulatory environmental issues of the Chesapeake Bay 
are the purview or the jurisdiction of the State of Maryland or 
the State of Virginia. It is not Federal water. It is all State 
water.
    So if the State of Maryland wants to introduce Asian 
oysters, basically the State of Maryland can introduce Asian 
oysters or the State of Virginia. Where the Federal Government 
has the hook, generally speaking, both of those States, besides 
needing certain kinds of permits, need money to do that because 
they do not have the resources to do it widespread. So they 
come to the Federal Government through various agencies for 
help. Whether it is the Corps of Engineers, Fish and Wildlife 
Service, EPA and so on.
    Since they have come to us, in a small way, then we are a 
part of the research to determine whether or not these Asian, 
non-native oysters will be good for the Bay or whether they 
will eventually be classified as an invasive.
    I do want to say that apples are not native to North 
America, but they are not invasive. They have been pretty good 
for us. And honey bees, I understand, are not native to North 
America. But honey bees are good. So we just want to make sure 
there is enough understanding and research before these things 
are introduced slowly so that we can follow that.
    There is no cure for that yet, native oysters live to be 
about 3 years old, and then they die. It is a process that we 
are very interested in, and we are working with the Secretary 
of the DNR, a man named Ron Franks and we are working with 
another fellow named Mike Slattery in DNR and some other people 
to try to do the right thing.
    We are not hurrying. Some people--I do have to tell you, 
some people in the State of Maryland DNR want to hurry up, but 
I think the overall view is that we ought to pursue this in a 
reasonable way.
    Ms. Mason. I am Amber Mason from Pocomoke High School. I 
just want to say, the only problem with the oysters, the Asian 
oysters, is that they are resistant to a strain of bacteria 
that exists in the Chesapeake Bay. Therefore, there are no 
natural predators that are going to kill off those oysters. 
Therefore, they do become invasive. Rather than investing our 
money in bringing in what could become invasive species, we 
should invest the money in a cure for this bacteria so that our 
native oysters can re-flourish in the Bay.
    Mr. Gilchrest. Very good comment.
    Somebody else that had a comment?
    Ms. Lines. I have spoken with Tom Horton and Don Baugh with 
the Bay Foundation, and they talked about the oyster 
restoration plan that we have been trying to do with our native 
oysters. And they said, initially, they thought that was not 
working when they built the reefs, but what they found--they 
were just checking the oysters on the outside of the reefs that 
they are building and putting shells in and putting new spat 
out--that the oysters on the outside were not doing well. But 
if they went inside, they found out that they were doing really 
well.
    And I wonder in maybe we shouldn't investigate more 
building reefs up from old shells, seeing if the native oyster 
could not do better in the reef setup where the internal ones 
seem to be resistant to the diseases.
    Mr. Gilchrest. We will follow up on that this afternoon.
    Moving on to some of the problems down in the Pocomoke, 
poultry, large poultry farms on small acres that we have been 
working with up here, along with a number of other States, to 
come up with a better management--nutrient management plan. And 
I am just curious, especially the two students here from 
Pocomoke High School. Have you visited or do you know much 
about the pelletizing plant that Perdue has built just inside 
the Delaware line?
    Ms. Levin. No.
    Mr. Gilchrest. Jim Perdue--and you mentioned it in your 
testimony, which was on target, taking some of that manure and 
putting it--I don't know if you used the word pellets or 
pelletizing it or similar to that.
    Ms. Levin. Turn them into pellets.
    Mr. Gilchrest. So you can determine the amount of nitrogen 
and phosphorus in that amount of pelletized manure, and you 
would be able to distribute that on the land in a much more 
managed fashion so that the corn and the soybeans would take it 
up instead of leaching into the ground and the water, washing 
it away.
    Jim Perdue has built a large pelletizing plant just inside 
Delaware. And what he is trying to do, since most of the grain 
that the poultry farmers use comes from the Midwest--they use 
all the grain on the Eastern Shore and still have to import it 
from the Midwest, nutrients from Iowa, Indiana and places like 
that. What they want to do is ship the pellets back. We get the 
corn, but they do not leave behind the nitrogen and phosphorus. 
We send it back to them, and they use it on their fields to 
fertilize their plants.
    You also mentioned something about gypsum being used. Can 
you tell us a little bit more about the process that gypsum 
might play in nutrient management for agriculture?
    Mr. Gladding. I am Tommy Gladding from Pocomoke. Gypsum is 
a combustion byproduct formed when coal is burned. It is 
extremely cheap. When EMES conducted its studies, they only 
needed to pay the truck to bring it, and the companies are 
giving it away. And they found in the studies that gypsum 
impairs the vertical movement of phosphorus.
    The problem is that there is so much phosphorus in the soil 
that it would last 25 more years if we did not add any more. 
And the plants cannot use it, and it leaches in the ground and 
gets in the water and, in some places, the water table, 6 
inches below the crop surface. So it does not have to go far 
before it is in the water. It does not alleviate the problem, 
but it keeps moving, so they do not need to add more. They can 
use up what is in the soil now.
    Mr. Gilchrest. So the concentration of phosphorus that is 
in the soil now will be there for another 25 years means that 
you do not have to add phosphorus.
    Mr. Gladding. There is plenty now, and so we just keep it 
from getting in the water. And the plants can use it.
    Mr. Gilchrest. So the gypsum would help it from moving and 
would aid in plant uptake as well?
    Mr. Gladding. I am not sure if it is gypsum or another one 
of the chemicals that they were using, but the plants can get 
it out of the soil relatively easily. I think they might have 
said that adding something like that to the soil, and it will 
help plant intake. They can get it out of the soil relatively 
easily. They just have so much there already; there is no need 
to bring in more manure.
    Mr. Gilchrest. Very good. Thank you very much. Pocomoke 
also mentioned a problem with--you have sewage treatment plant 
problems, septic tank problems generally. Do you have any 
issues at all similar to what Cecil County had with perk tests 
before you construct a house? Have you heard anything like that 
down in Worcester County?
    Ms. Lines. The Pocomoke watershed is not growing as fast as 
other areas in Worcester County like Ocean Pines and Ocean 
City. Almost all of the land near the river is agriculture or 
swamp. So I don't think the perk is an issue yet.
    Mr. Gilchrest. I see. Right. You mentioned--the Pocomoke 
students mentioned the various streams and ditches that flow 
into the Pocomoke River that carry rain. Problems with 
nitrogen, do you have any recommendations? The ditches were put 
there to drain the fields so you could farm. And you are 
apparently keenly aware of the economic importance of 
agriculture because you have mentioned that a number of times. 
Ditches, however, do bring nutrients to those fields as they 
are drained into the Pocomoke River to further--I hate to say 
it--degrade the Pocomoke River.
    Are there any--do you have any recommendations on what 
farmers could do with the ditches?
    Ms. Levin. The idea would be that drainage ponds that allow 
the nutrients to settle or allow you to be able to remove them 
however way you need to. You can dredge it, and then find 
somewhere that needs the soil, even though that is expensive. 
But you could also plant plants that use those nutrients around 
the pond or in the pond.
    Mr. Gilchrest. So have a sediment pond near the ditches? 
That is a good idea. Good idea.
    You also mentioned that word that was so prominent a few 
years ago, Pfiesteria, the mystery disease. People were even 
talking about it up here from all over the country.
    It was very controversial at the time as far as, is there 
such a thing as Pfiesteria? Does it actually have a toxic stage 
in its life cycle? Could it really affect people? Is it caused 
by large numbers of fish, menhaden in particular? All those 
things.
    From your perspective, in your research and living in 
Worcester County around the Pocomoke River, do you have a sense 
that Dr. Burkholder from North Carolina was correct when he 
said that phosphorus on farm fields getting into the water is 
what caused the outbreak of Pfiesteria?
    Mr. Nugent. I think that had something to do with it. Like 
we said, all the algae that will grow from the extra nutrients 
will help feed the Pfiesteria. And so I think it had something 
to do with it. I don't think it was all that, but I do think it 
had a big part in it.
    Ms. Levin. Also, Pfiesteria can thrive in a river that has 
phosphorus in it.
    Mr. Gilchrest. Do you have a sense that most people 
recognize that? Is there any sense that you have, including in 
Cecil County, that agriculture has improved over the last 5 
years or so with some of the things that you have discussed as 
far as buffer zones, crop rotation, better nutrient management 
plan? Do you think that agriculture is better today than it was 
5, 10 years ago?
    Ms. Sanford-Crane. I think it really has in Cecil County. I 
live on a farm, a small one, and one of our members also lives 
on a farm. Last year, we went to a large dairy farm called 
Mount Ararat, and they were a prime example of people using 
best management practices. And we toured their whole farm. And 
I know cows, and they are messy, but their farm was amazing. 
They had everything the right way. The farmers are trying hard. 
They always get a bad rap. They are dumping pollution in the 
Bay and the fertilizer. But the majority of it comes from the 
suburban families that do not care. The farmers seem to really 
try hard to make sure that they fit with the Bay.
    Mr. Gilchrest. Very good.
    A gentleman in the back who had his hand up. What was your 
name again?
    Mr. Husfelt. Brandon Husfelt. The agriculture has really 
improved in Cecil County over the last 5 years, because there 
has been many best management practices implemented, like no-
till farming. There is--
    Ms. Lucs-Haji. On a curve, the contour.
    Mr. Husfelt. There is contour farming. Water, one way where 
there is like a ditch. You could put grass in it there to slow 
the water down and trap some of the dirt and sediment and 
stuff. That really helps a lot with runoff.
    Mr. Gilchrest. So we are making progress?
    Mr. Husfelt. Yes.
    Mr. Gilchrest. We have to keep the pressure up, though, to 
make that progress.
    We have in statute--that means in law--a pilot project for 
the Delmarva peninsula. It is called the Delmarva Conservation 
Corridor. We are working with the U.S. Department of 
Agriculture and the States to help improve markets for 
agriculture, so the farmers can make money, but also use 
conservation dollars to put in a lot of these buffers and 
waterways, forested areas. That is the conservation part, to 
hold on to the ecological integrity of the Delmarva peninsula. 
And the kind of things that you are talking about here this 
morning are really right up that alley.
    Do you have--oh, on June the 14th, we are having a hearing 
like this on the pilot project, the Conservation Corridor on 
the Delmarva peninsula at Salisbury State College. And we will 
have witnesses from all over the watershed talking about 
agriculture, water quality, septic tanks, perk tests and those 
kinds of things.
    So if you have an opportunity, it is the 14th of June. I 
think it will probably start at 10:00 and probably will go to 
some time late afternoon if you have an opportunity to come 
down. And we will be discussing the same kinds of things.
    Does anyone feel--you mentioned, both the schools, that 
much of your area is becoming too urbanized or too developed. 
Worcester County talked about Ocean City and, to some extent, 
Berlin and a place called Ocean Pines. And Cecil County is 
developing fairly quickly in a number of areas, not as fast as 
Delaware, but if you drive up from--if you drive east from your 
school, you see a wall of houses on the Delaware line.
    Ms. Lucs-Haji. Yes, that is true.
    Mr. Gilchrest. Do you have any comment? Any comment about 
development trends in your area?
    Ms. Lucs-Haji. There is a lot of zoning meetings--for the 
paper, like community forums with zoning. And I know that my 
mother and a couple of other people have gone to a lot of the 
Cecil County forums for urban sprawl and have voted out a lot 
of the zonings that have said industrial or--industrial 
zonings.
    Delaware, I think, has enough like gridlock on a lot of the 
urban sprawl. I guess some of the delegates feel that they want 
to let their land, their agricultural land urbanize and 
populate. But the land is very valuable around the Bay. And 
Milltown is right down south of Chesapeake City, and that has 
totally--it has gone from maybe 15,000 to maybe 5,000 more in 
maybe a year. And these are a lot of new houses that have just 
added to the problem.
    Ms. Sanford-Crane. Yes, we have been having a lot of 
meetings because the farmers want to sell their land. Right 
now, land is very expensive. Everybody wants to move to Cecil 
County. I don't know why, but they do. The farmers are selling 
their lands.
    However Maryland has a law that states how many houses can 
be built in how many acres. I do not remember all of the rules 
about them, but if you have a 20-acre farm, you can only build 
five houses, and each house has to have an acre of land. You 
can't subdivide into tiny places.
    But the Cecil County farmers have been lobbying to get rid 
of this rule, because they want to sell the land into lots of 
tiny houses that people are willing to buy and give them even 
more money for it. I don't think any of them have been 
disregarded yet. I think these laws are still in place, but it 
is hanging on there barely.
    Mr. Gilchrest. Do you have any sense that your local 
elected officials are aware of the kinds of ecological 
discussions that you have raised here today?
    Ms. Lucs-Haji. There is a new Happy Harry's right across 
from our farm. And we did not need it. It is another problem we 
have.
    Mr. Gilchrest. So you are saying that maybe the local 
elected officials or the people who decide or determine land 
use in your area, do you think they are as sensitive to these--
    Ms. Lucs-Haji. No, I do not think they are.
    Mr. Gilchrest. OK. That is a pretty straight forward 
answer.
    Comment from Pocomoke?
    Ms. Levin. I don't think you should overdevelop the land. 
You have to think about how we are talking about watersheds and 
problems. And if you develop, you are going to create more 
problems that won't just be agriculture, like for us, poultry. 
It will be maybe more sewage and more chemicals, maybe. Stuff 
that people just dump. And it will just kind of shift the 
problem.
    Mr. Gilchrest. You all seem to have a sensitivity to these 
issues and a passion for these issues and knowledge about these 
issues. There is an old saying that knowledge is power, but I 
like to think of that saying from a more democratic perspective 
which is: Knowledge is influence. So the kind of knowledge that 
you have, you can influence people by passing that knowledge 
along to those people who make decisions.
    How do you think you can be a part of that influencing 
process now with the kind of knowledge you have accumulated 
over the last many month or years? How best can you participate 
in the political process or the local process to have enough 
people understand what you now seem to know, to help with the 
watershed, to have an understanding of the hydrologic cycle is 
what moves a lot of these toxins? What do you think you can do 
to further your knowledge and curiosity?
    Yes?
    Ms. Mason. I think that our Discovery Center in Pocomoke 
for one, the Delmarva Discovery Center could have a really big 
impact on the community. But us being teenagers in the high 
school, if we show a passion for it and we get other people 
involved in it and have hands on activities and different 
things to do where kids are learning and not realizing it, 
where they do not look at it as a classroom but a new 
perspective, I think they will gain a better knowledge of what 
exactly the problems are and how they can be fixed. And I think 
they will put a better hand in the community. And not only 
that, but they will get their parents involved in the community 
better, completely rather than just in the school systems. 
Because I think that residential areas need more knowledge, 
too, not just students.
    Mr. Gilchrest. Very good. I think some of the new 
developments outside of Berlin are already experiencing severe 
problems with flooding every time it rains a quarter of an inch 
because there was not enough planning that went into these new 
developments.
    There is a group in Worcester County called Friends of the 
Nassawongo River. They meet in Furnace Town every once in a 
while, and they might want to hear--not that I want to overwork 
you so that you do not have any summer vacation, but there is a 
farmer in Cecil County named Bill Kilby who works very 
aggressively to deal with these land use issues.
    Do you have any other suggestions or comments or any 
questions you want to ask us?
    Ms. Lucs-Haji. What is being done about urban sprawl?
    Mr. Gilchrest. You know, that is an excellent question. I 
wish I could take this gavel and had the influence or power to 
say, no more urban sprawl. But in our system of government, and 
that is an excellent question, in our system of government, 
land use, 90 percent of the time, is a local issue.
    Ms. Lucs-Haji. Local?
    Mr. Gilchrest. Is a local issue. It is only a county issue, 
but Elkton cannot be told by Cecil County what they can or 
cannot do or Perryville or Russellville or Rising Sun. All of 
those places--or Ocean Pines or Berlin or Pocomoke itself--they 
have the purview or the jurisdiction, the authority to 
determine land use in that political division.
    Now, the county pretty much takes care of anything that is 
not incorporated in that community. But the county government 
can determine the land use, which means they can determine, you 
can have 20 houses on 20 acres or a thousand houses on 20 
acres. That is determined by the local government.
    What we do at the Federal level, we pass sweeping laws, 
like the Clean Water Act or the Clean Air Act, those kind of 
things that provide, for the most part, a minimum standard as 
far as the air is concerned, the water is concerned.
    But a number of you mentioned that DNR does not have enough 
people. The EPA, for the whole country, does not always have 
the kinds of resources and people to test everybody's well, to 
test the outfall of a sewage treatment plant, to make a 
determination of a septic tank. And almost all septic tanks do 
not hold on to nitrogen.
    So what are we doing about urban sprawl? We try to use our 
influence as much as possible. For example, on the Eastern 
Shore of Maryland, you have a lot of farms. And there is a 
Federal program, a State program, and some counties have a 
farmland protection program. What we do here is to appropriate 
millions of dollars--sounds like a lot, but when you spread it 
all over the country, it is a minimal amount--we send Maryland 
every year a number of dollars to mix with their ag programs in 
rural areas so that you can purchase the easements of farms, 
the development rights. The farmer gets the advantage of 
keeping the farm, getting a big chunk of money, and it protects 
the area from being urbanized or suburbanized. If we can hold 
on to enough farms and find markets for those farmers, the 
farmers can continue to make money, and they will keep their 
farms. And open space will be available.
    So what are we doing about urban sprawl? And we have to get 
into the heart and mind of local elected officials and the 
planning commission, who helps really determine land use, and 
then the county commissioners agree or disagree with it, with 
the kind of information that you gave to us this morning. 
Communicating and trying to influence people.
    So if you could get to the Worcester county commissioners, 
Cecil County commissioners and expand programs that already 
exist there, it would be very, very, very helpful.
    Yes, sir?
    Mr. Britain. I am Daniel Britain, and this is going to 
sound different from what we have talked about today. I think 
one of the problems is the rhetoric we are using. When we say 
``Save the Bay,'' it creates an impersonal response to people 
who never see the Bay. I think we need a slogan like ``saving 
ourselves,'' because the Bay will be there when we are not.
    So I think we need to turn it into more of a structured 
local response, so a person in western Maryland will see how 
their actions affect the rest of the Bay instead of ``Save the 
Bay.'' ``Save the Bay, this is what we need to do and this is 
how it affects the Bay,'' rather than just ``Save the Bay.''
    Mr. Gilchrest. It is an excellent idea. I hope maybe--each 
town and each county needs someone to be the intellectual/
spiritual leader for that community. Enlighten your neighbors.
    I want to thank all of you for coming. This has been just a 
wonderful experience for us. And I would like to help you take 
this another step beyond a school project, which was the 
foundation for the information that you can accumulated, to an 
interesting curiosity to testify in Washington to help you 
continue to work to save our Pocomoke and to save our northeast 
Sassafras. I live near the Sassafras. I have a special feel for 
the Sassafras river as well. We want to take this all over the 
watershed, but particularly in your two areas, you did a fine 
job.
    I want to thank the teachers and your families for being 
patient and especially the students for your dedication. The 
hearing is adjourned.
    [Whereupon, at 1:25 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
